<html>
<title> - CENSUS 2020: EXAMINING THE READINESS OF KEY ASPECTS OF THE CENSUS BUREAU'S 2020 CENSUS PREPARATION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


   CENSUS 2020: EXAMINING THE READINESS OF KEY ASPECTS OF THE CENSUS 
                    BUREAU'S 2020 CENSUS PREPARATION

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 9, 2016

                               __________

                           Serial No. 114-114

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                             __________



                    U.S. GOVERNMENT PUBLISHING OFFICE                    
23-483 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="99fee9f6d9faeceaedf1fcf5e9b7faf6f4b7">[email&#160;protected]</a>                       
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
                       Patrick Hartobey, Counsel
                      Liam Mckenna, Senior Counsel
                    Sharon Casey, Deputy Chief Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 9, 2016.....................................     1

                               WITNESSES

Mr. John H. Thompson, Director, U.S. Census Bureau, Accompanied 
  by Harry A. Lee, Acting Chief Information Officer, U.S. Census 
  Bureau
    Oral Statement...............................................     4
    Written Statement............................................     7
Mr. Steve I. Cooper, Chief Information Officer, U.S. Department 
  of Commerce
    Oral Statement...............................................    14
    Written Statement............................................    16
Ms. Carol Cha Harris, Director, Information Technology 
  Acquisition, Management Issues, U.S. Government Accountability 
  Office
    Oral Statement...............................................    20
    Written Statement............................................    22
Ms. Carol N. Rice, Assistant Inspector General, Office of 
  Economic and Statistical Program Assessment, U.S. Department of 
  Commerce
    Oral Statement...............................................    57
    Written Statement............................................    59


 
   CENSUS 2020: EXAMINING THE READINESS OF KEY ASPECTS OF THE CENSUS 
                    BUREAU'S 2020 CENSUS PREPARATION

                              ----------                              


                         Thursday, June 9, 2016

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 9:04 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Duncan, Jordan, 
Walberg, Amash, Gosar, Farenthold, Meadows, Mulvaney, Blum, 
Walker, Buck, Hice, Carter, Grothman, Palmer, Maloney, Norton, 
Clay, Cooper, Connolly, Kelly, Watson Coleman, Plaskett, 
DeSaulnier, Welch, and Lujan Grisham.
    Chairman Chaffetz. The Committee on Oversight and 
Government Reform will come to order, and without objection, 
the chair is authorized to declare a recess at any time.
    I thank you all for being here as we examine the 
preparations of the census of 2020. Hard to believe, but it is 
coming up before us. And, in fact, it is less than 4 years 
away, so now is the time to identify problems while they can 
still be remedied.
    Today's hearing is especially important, given the 
modernization efforts undertaken by the census as it attempts 
to control the rising costs of administering the decennial 
census. The cost of counting individuals has gone up roughly 
500 percent since 1970, and cost estimates for the 2020 census 
have exceeded $17 billion. I appreciate the Bureau taking 
proactive steps to save taxpayer dollars by adopting new 
technologies to increase efficiency and lower costs. That is 
the whole premise of technology. It is supposed to make life 
easier, simpler, more efficient, and more effective, and we can 
extrapolate the data more quickly.
    But in the Bureau's effort to cut the price tag for the 
2020 census, it may have bitten off a little bit more than it 
can chew, and we are here to get on the record and talk about 
and have candid discussions about the realities of moving 
forward.
    The Bureau is attempting to modernize through two separate 
programs: the 2020 census and the Census Enterprise Data 
Collection and Processing program, also known as CEDCaP. It is 
the bureau-wide program to digitize and modernize not only the 
decennial census but all of the surveys that are conducted by 
the Bureau. And among the different systems being updated, 
they're the mobile device platform, an Internet response 
platform, and programs to manage enumerators.
    But right now, as best we can tell, the Bureau is zero for 
17, that is 0 for 17 in its efforts to execute final versions 
of the IT necessary for these modernization efforts. With only 
a year-and-a-half before the 2018 end-to-end test, the Bureau 
cannot afford to dither on decisions and risk failing to test 
aspects of the modernization program. Failure to be ready for 
the 2018 test can mean that first-time systems were tested 
actually in 2020, and that is what we are trying to avoid.
    Allowing the 2020 census to proceed with untested programs 
and risk another HealthCare.gov fiasco must not happen. By all 
accounts, the Bureau does not have a clear backup plan in place 
in its modernization efforts to be completed on time, and it is 
a bit incomprehensible because for the 2010 census the Bureau 
attempted a far less expansive modernization effort utilizing 
custom-built mobile enumeration device that ultimately failed. 
This is the widget if you will, the gadget. This is a $3 
billion mistake that happened, $3 billion and it didn't work 
and had to be trashed, and we don't want to have to go through 
that again. It was a real problem.
    The challenges facing the successful execution of the 
Bureau's plan for the 2020 census extend beyond merely the 
actual systems. Problems exist in both staffing and the cost 
realm as well. The Bureau has had a number of long-term 
vacancies in key positions. It was just monday of this week 
that the Bureau announced the appointment of a permanent chief 
information officer Kevin Smith roughly 11 months since the 
departure of the previous CIO. We are glad that Mr. Smith is 
joining us.
    He is not here on the panel today. I thought it would be a 
little unfair, on day 4 of his new employment, to call him 
before Congress, but he has a massive task in front of him. I 
look forward to working with Mr. Smith and make sure that our 
committee is fully integrated with what is happening and not 
happening.
    Today, however, vacancies in key leadership positions 
remain, including the chief information technology security 
officer for CEDCaP. Obviously, the sensitivity of the data is 
of most concern.
    The Bureau is also experiencing problems related to the 
cost of its modernization efforts. The GAO, who's represented 
here today, and the Department of Commerce inspector general 
feel that the Bureau is inaccurately estimating the cost for 
the census. The Bureau has estimated that its modernization 
efforts will cost around $548 million. However, GAO states that 
an independent estimate is nearly twice that amount based on 
the Bureau's efforts of being successful, it is estimated the 
cost will actually be closer to $1.1 billion. That is not an 
insignificant difference, and we are here to explore in part 
today why the difference in such a vast--we are talking about 
hundreds of millions of dollars in difference.
    I would like to thank all of you in advance for your 
participation and your testimony here today. I look forward to 
working with you, and we will have regular hearings as the 
Oversight and Government Reform Committee does have 
jurisdiction in this matter.
    Chairman Chaffetz. I will now recognize the gentlewoman 
from New York, Mrs. Maloney, for her opening statement.
    Mrs. Maloney. First of all, thank you, Mr. Chairman, for 
convening today's hearing to examine the Census Bureau's 
readiness to conduct the 2020 decennial census. I want to thank 
you and the panelists for being here on this important national 
issue.
    I am very pleased to hear that information technology is 
playing such a key role in the upcoming census and that the 
Bureau is taking advantage of the Internet, handheld devices 
for enumerators, and other technologies that before now were 
not widely available.
    The well-planned use of technology is critical to the 
success of the decennial census, the Nation's largest peacetime 
activity, and a constitutionally mandated foundation of our 
democracy. If we do not have good data, then this country does 
not have a foundation on which to base good public policy for 
both the public and private sector.
    Census data is used to apportion seats in the United States 
House of Representatives, defines State Legislature and city 
legislature districts, determines school district assignments, 
and helps the private sector and the government make sound 
investments of where the people are and where the needs are. 
Decisions on how to fund special education grants, adoption 
assistance, the creation of small business development centers, 
rural business enterprise grants, and other programs are all 
dependent on an accurate census.
    The Census Bureau and Department of Commerce have admitted 
that there have been challenges in preparing for the largest 
census to date, one that encompasses a population projected to 
reach more than 324 million people by 2020. According to the 
GAO, chief among those challenges is the fact that the Bureau 
has gone without a permanent chief information officer for 
nearly a year.
    Since November, Joint Government Operations and Information 
Technology Subcommittee hearing on the census, Harry Lee, the 
Bureau's acting CIO; and Steven Cooper, the Department of 
Commerce's CIO, have done an admirable job of filling the gap 
and responding to GAO's IT-related recommendations. As of 
today, only three out of the 114 IT-related recommendations 
made by GAO remain unaddressed. I would like to congratulate 
you on this achievement.
    This week's announcement that Kevin Smith has been hired as 
the Bureau's chief information officer is encouraging and will 
provide additional leadership to help guide the decision-making 
process.
    However, there is still a great deal of work to be done if 
the Bureau is going to meet the census modernization goals. For 
example, while the decision to rely more heavily on technology 
makes sense, we must incorporate solutions that recognize that 
access to technology like broadband Internet is inconsistent 
across the country. Now, that is a huge challenge. According to 
a January 2016 Federal Communication Commission's report, 10 
percent of Americans do not have broadband Internet access. In 
rural areas, that number increases to nearly 40 percent.
    For the first time on a nationwide scale, the Bureau will 
individuals and households to respond to the 2020 census via 
the Internet, so congratulations to catching up with the rest 
of the country. We are going to the Internet. That makes good 
sense. The Bureau is projecting that more than 50 percent of 
the households will provide that information using the 
Internet, and that this will be a huge, huge savings to the 
Census Bureau. But I have to ask, without access to a broadband 
Internet connection, is that number realistic?
    In an election year, we are reminded of how fundamental the 
census is to our democracy and the sustained well-being of all 
of our communities. There is a lot of work to be done, and the 
Bureau's plans are certainly ambitious. While I am encouraged 
by the progress being made, I think it is important that 
realistic contingency plans are also being considered. I am 
looking forward to hearing the specifics today on what those 
contingency plans--what is your fallback plan if you can't 
reach these goals? And at what point and at what judgment call 
would be made to adopt the fallback plans.
    Again, I want to thank the majority and the chairman for 
calling this hearing, and I want to thank the witnesses for 
testifying. This is a fundamental part of our democracy, a 
fundamental part of our planning, and fundamentally important 
to the growth of our economy and the ability of our government 
to respond to the needs of our people.
    So I thank all that are part of making the census the best 
ever in the history of our great country.
    I thank you and I yield back.
    Chairman Chaffetz. I thank the gentlewoman.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement, and will 
now recognize our panel of witnesses.
    I am pleased to welcome the Honorable John Thompson, 
director of the United States Census Bureau. Mr. Steve Cooper 
is the chief information officer at the United States 
Department of Commerce. Mr. Harry Lee has been the acting chief 
information officer at the United States Census Bureau. Ms. 
Carol Harris is the director of information technology 
acquisition management issues at the United States Government 
Accountability Office. And Ms. Carol Rice is the assistant 
inspector general at the Office of Economic and Statistical 
Program Assessment at the United States Department of Commerce. 
We thank you all for being here.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify, so if you will please rise and raise your 
right hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. Let the record reflect the 
witnesses have all answered in the affirmative.
    In order to allow time for some good discussion, we would 
appreciate it if you would limit your oral presentation to no 
more than 5 minutes. Your entire written statement will be made 
part of the record.
    Director Thompson, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

                 STATEMENT OF JOHN H. THOMPSON

    Mr. Thompson. Good morning, Chairman Chaffetz, Ranking 
Member Maloney, and other members of the committee. I really 
appreciate the opportunity to update you on the 2020 census. 
I'm proud to report today that we are on time and on schedule.
    This is a joint statement with Harry Lee, acting associate 
director for information technology and chief information 
officer. I thank Mr. Lee for his service over the past year. On 
Monday, he will be joined by our new CIO Kevin Smith, who comes 
from the U.S. Patent and Trademark Office.
    In November, I testified that we're on track to execute a 
decennial census that is innovative, efficient, and accurate. 
The 2020 census operational plan includes 350 design decisions 
of which 168 had been made in November. Since then, we've made 
an additional 45 decisions on schedule and in some cases ahead 
of schedule.
    My written testimony provides a detailed description of our 
progress, which I will summarize in the remainder of my oral 
testimony.
    The Census Bureau is pursuing four key innovation areas 
that will make it easier for people to respond and save 
taxpayers more than $5 billion: first, reengineering address 
canvassing; second, optimizing self-response; third, using 
administrative records and third-party data; fourth, 
reengineering field operations.
    We're testing these innovations in our 2016 census tests in 
Los Angeles and in Harris County, Texas, which includes review 
of our system's readiness and operations. I've visited both 
sites and seen the operations, the innovations. Next week, our 
visit our National Processing Center to observe our in-office 
address canvassing progress.
    Today, I will focus on the decisions we've made to support 
these innovations since November. Use of mobile devices for 
2020: A key aspect of reengineering our field operations is 
replacing enumerators' paper and pencil with mobile devices. 
These devices have software to securely collect household 
information, transmit data, make daily assignments, updates, 
and time sheets.
    Based on the findings from our 2014 and 2015 tests, we 
decided to employ device as a service, another decision made 
ahead of schedule. In this arrangement, a contractor will 
provide devices and service contracts to enumerators on our 
behalf.
    Cloud computing: One of our objectives for the 2016 test 
was to test collection systems in the cloud. Mr. Cooper will 
discuss this further in his testimony.
    Census Enterprise Data Collection and Processing, or CEDCaP 
systems, build/buy. Since December 2014, we've been assessing 
whether to use commercial software products to collect and 
process data or whether to build our own systems. In May, we 
announced our decision to use a commercial platform with 
specific solutions developed by census experts.
    We made this decision with confidence due to rigorous 
analysis. First, our in-house teams had created and tested 
prototypes that refined our requirements and helped us better 
understand how we could reengineer our business processes. 
Then, we analyzed commercially available products against these 
requirements identified by the prototypes. Finally, we 
conducted our analysis with significant input from experts at 
Carnegie Mellon University and the National Academy of 
Sciences. Ultimately, we decided that this approach best meets 
our data-collection and processing goals for the 2020 census.
    Preparing for future decisions: Census tests are critical 
to our preparation for 2020. This fall, we will test in-field 
address canvassing procedures and systems in Buncombe County, 
North Carolina; and St. Louis, Missouri. In 2017, we will 
conduct a nationwide self-response test with an in-field 
component tested on two American Indian reservations. We will 
also test address canvassing integration of our data-collection 
methods in Puerto Rico. We will announce sites for the 2018 
end-to-end test very soon. Systems testing will begin this 
November with the first field component beginning in 2017--the 
fall of 2017.
    Mitigating risk: As I discuss in detail in my written 
testimony, mitigating risk is a high priority for the Census 
Bureau. In particular, we've maintained an enterprise-level 
risk management program which contains comprehensive risk 
registers for individual programs, including the 2020 census 
and CEDCaP.
    An extremely critical risk is cybersecurity, and you will 
hear more about that from Mr. Cooper as well.
    Another significant risk we face is budget uncertainty. If 
adequate funding is not received in fiscal year 2017, we will 
have to reprioritize activities to ensure that the 2018 end-to-
end census test and the 2020 enumeration will take place on 
time. If we have to defer activities, the cost of the census 
will increase.
    I thank the Congres for your continued support, interest in 
our work. I am confident the Census Bureau will achieve its 
objectives with congressional support.
    I look forward to answering your questions. Thank you.
    [Prepared statement of Mr. Thompson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. Mr. Cooper, you are now 
recognized for 5 minutes.

                  STATEMENT OF STEVE I. COOPER

    Mr. Cooper. Good morning. Chairman Chaffetz, Ranking Member 
Maloney, and members of the committee, thank you for the 
opportunity to testify this morning. It is my pleasure to 
address the committee and update you on our work for a 
successful 2020 census.
    As you know, the Census Bureau faces an increasing set of 
challenges, including declining survey participation rates, 
increasing survey costs per household, funding constraints, and 
evolving cybersecurity threats. The Census Bureau continues 
working to ensure the necessary information technology is in 
place to support the 2020 decennial census.
    In November, I testified before many of you and spoke about 
a major enterprise initiative providing support to the 2020 
census, the Census Enterprise Data Collection and Processing, 
known as CEDCaP. CEDCaP is an integrated and standardized suite 
of systems that will provide shared data collection and 
processing solutions across all Census Bureau operations.
    Just weeks ago, the Census Bureau announced a major 
decision on whether to use commercial software products or 
develop our own systems to collect and process data in the 2020 
census. After a comprehensive evaluation and extensive 
analysis, we have determined that a hybrid approach--combining 
a commercial off-the-shelf COTS system with specific solutions 
developed by census experts--will best meet our needs. The full 
CEDCaP COTS Capability Assessment and Analysis Report is now 
available, as well as the related 2020 Decision Memo.
    During this same period, our in-house innovation and 
development teams have been hard at work developing test 
prototypes for the 2020 census field tests. This testing has 
been a critical part of the development process, allowing us to 
better understand how to reengineer our business processes to 
save money during the 2020 census. The work of the teams helped 
us develop and refine our requirements and to conduct a well-
informed evaluation of the COTS products.
    Based on our final requirements, an analysis of the 
development and testing results, and with input from experts at 
Carnegie Mellon University and the National Academy of 
Sciences, we decided on an integrated COTS platform which can 
supply functional solutions that also incorporate innovations 
that we have developed in-house. This approach meets our data 
collection and processing goals for the 2020 census and allows 
us to build the infrastructure to support our censuses and 
surveys in the future as well.
    Refining the systems we use for data collection and 
processing is a critical component of our proposal to save $5.2 
billion in the 2020 census when compared to the 2010 census 
design. Meeting the schedules and timelines are key to 
preparing for the 2018 end-to-end test, which will test the 
integration of all major operations, processes, and systems.
    The Census Bureau continues to explore how best to employ 
cloud-computing services to support the performance and scaling 
needs of 2020 census systems, particularly for the Internet 
self-response option that must support millions of users. As 
part of this effort, we have developed several guidance 
documents to include a cloud strategy, a cloud maturity model, 
cloud concept of operations, a consolidated project dashboard 
to measure that progress and success, and cloud readiness 
checklist. We are ready to evaluate cloud candidates among 
census systems and applications before beginning any migration 
or transition activities.
    The Census Bureau is currently engaging in robust technical 
activities to innovate and fully transition to the cloud. 
Proof-of-concept activities include performing integration, 
load, and penetration testing to validate results. We have 
collected lessons learned to incorporate high availability and 
redundancy in the cloud.
    We intend to engage and acquire private sector expertise to 
partner with census to obtain cloud services and ensure overall 
system readiness and security for the decennial census.
    Obviously, securing confidential data is a major concern 
for the Census Bureau. The Census Bureau uses an enterprise-
layered defense approach to protect its data and systems. This 
includes the use of Department of Homeland Security-managed 
EINSTEIN program, intrusion-detection systems, intrusion-
prevention systems. We have segmented Census Bureau's network 
to isolate the internal network from systems that are Internet-
accessible, and we have adopted risk management framework 
guidelines from our colleagues at the National Institute of 
Standards and Technology.
    Census works very closely with the Department of Commerce 
in addressing the various cybersecurity goals set forth by the 
Department, the Office of Management and Budget, and the 
Department of Homeland Security. Moreover, Census also has an 
active Computer Incident Response Team to identify and 
investigate incidents that may be cybersecurity-related. The 
CIRT has trained forensic specialists on staff who are involved 
in incident investigation and response. In addition to DHS 
EINSTEIN, we've employed a layered defense strategy with the 
implementation of Census Intrusion Detection Systems, 
firewalls, and antivirus scanning.
    Consistent with my testimony in November and based upon my 
ongoing observations, the Census Bureau and the 2020 census 
program is well-positioned to leverage enterprise initiative to 
realize significant efficiencies and mitigate risk. Innovations 
in cloud computing, mobile technology, and cybersecurity 
continue to show great promise, but to adequately implement 
these strategies and meet the challenges will require the best 
efforts of the Census Bureau and continued congressional 
support.
    I am deeply grateful for this opportunity to testify, and 
I'm pleased to answer any questions you may have. Thank you.
    [Prepared statement of Mr. Cooper follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. Mr. Lee, my understanding is 
you did a combined statement with Director Thompson, correct?
    Mr. Lee. That is correct.
    Chairman Chaffetz. Okay. We will now go to Ms. Harris. You 
are now recognized for 5 minutes.

                 STATEMENT OF CAROL CHA HARRIS

    Ms. Harris. Chairman Chaffetz, acting Ranking Member 
Maloney, and members of the committee, thank you for inviting 
me to testify today.
    Your continued oversight in hearings of the 2020 census are 
vital to ensuring that this important effort is managed 
effectively. The Bureau will rely on an enterprise-wide IT 
initiative called CEDCaP to deliver systems and infrastructure 
needed to carry out its redesign operations. For example, 
CEDCaP is planning to enable an Internet response option, 
implement a new system to track and manage enumerator 
caseloads, and use mobile devices for field data collection. As 
such, CEDCaP is integral to helping the 2020 census program 
achieve its estimated $5.2 billion cost-savings goal.
    Based on ongoing work, I'll highlight three key points 
regarding the Bureau's IT plans for 2020. First, CEDCaP has 
little time remaining to implement key production systems 
needed for 2020. The CEDCaP program is expected to deliver 17 
solutions for 2020, and implementation of the final production 
systems for the 17 has not yet started. For about half, the 
Bureau just recently made the decision to buy these solutions.
    However, by August 2017 the Bureau intends to begin end-to-
end testing to validate that CEDCaP systems are ready to go 
live on census day. This gives the Bureau less than a year-and-
a-half to reengineer business processes; configure, integrate, 
and test planned systems.
    Further, our in-depth analysis of three high-priority 
CEDCaP projects show that key IT management best practices were 
not fully implemented. For example, while each of the three 
projects meet weekly to monitor costs and schedule variances, 
their efforts to adequately assess progress have been hampered 
because none have up-to-date cost performance baselines or 
project plans with key details such as milestone dates for when 
production systems are to be released.
    Until the Bureau addresses the weaknesses we identified, it 
will be at greater risk of cost and schedule increases and 
failure to deliver capabilities that will meet the needs of 
2020.
    Second, more effective management of the interdependencies 
between the CEDCaP and 2020 programs is needed. These two 
programs are intended to be on parallel implementation tracks, 
and while steps have been taken to coordinate schedules, risk, 
and requirements, these programs lack effective processes for 
managing their interdependencies. For example, the Bureau's 
process for managing shared activities requires the programs to 
maintain two separate dependency schedules rather than 
establishing one integrated dependency schedule, as called for 
by best practice. This has contributed to the misalignment of 
major milestone events, including key build-or-buy decisions 
that CEDCaP ultimately needed to accelerate to meet the needs 
of 2020.
    In addition, the Bureau has proceeded with CEDCaP work 
without having a fully defined and institutionalized process 
for collecting business requirements. The lack of fully defined 
requirements has been a problem for the Bureau in the past and 
contributed to a $3 billion overrun and failed IT program in 
the 2010 census. Bureau officials have told us that they are 
taking or plan to take steps to address the issues. However, 
until these interdependencies are managed more effectively, the 
Bureau will be limited in understanding the work needed by both 
programs to deliver CEDCaP systems.
    Third, there are critical information security challenges 
that will need to be effectively addressed when implementing 
the 2020 census. Among other things, the Bureau's introduction 
of an Internet response option puts respondents at more risk 
for phishing attacks--that is, requests for personal 
information from authentic-looking but fake emails and Web 
sites.
    The Bureau must also make certain that key IT positions are 
filled and have appropriate information security knowledge and 
expertise. As of this week, the Bureau filled its most critical 
and long-standing IT leadership vacancy: the chief information 
officer position. More work will be needed to fill the 
remaining gaps, including the CEDCaP chief security engineer, 
to ensure that sensitive information collected during the 
census is adequately secure.
    In summary, the Bureau has a considerable amount of work 
left with less than a year-and-a-half remaining until its 
production systems must be ready for the 2020 end-to-end test. 
The margin for error is slim, and it will be critical for the 
Bureau to fully implement our recommendations. Doing so will 
improve the Bureau's ability to deliver on its IT plans and 
realize cost savings.
    That concludes my statement, and I look forward to 
addressing your questions.
    [Prepared statement of Ms. Harris follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. Ms. Rice, you are now 
recognized for 5 minutes.

                   STATEMENT OF CAROL N. RICE

    Ms. Rice. Thank you. Good morning, Chairman Chaffetz, 
Congresswoman Maloney, and members of the committee. I 
appreciate the opportunity to speak today about where the 
Census Bureau stands as it plans for a more modern, cost-
effective 2020 census.
    The Office of Inspector General is continuing its oversight 
of the Bureau's 2020 census planning efforts. The Bureau has 
stated--has a stated goal to conduct a cost-effective decennial 
while not compromising accuracy primary through automation and 
eliminating pen-and-paper processes.
    To meet its goals, the Bureau has focused on four areas: 
first, address canvassing. Through continuous updating of 
census maps and address lists, as well as conducting fewer in-
field verifications, the Bureau has a projected savings of $900 
million.
    Second, self-response. The Bureau is looking to maximize 
the participation rate. The more people that reply via the 
Internet or returning their paper questionnaire, the less need 
in associated cost there is to send someone to a non-responding 
household. It projects savings of $400 million through these 
efforts.
    Third, administrative records. The Bureau can leverage 
government and third-party data to improve address lists, 
verify respondent information, fill in blanks or invalid 
answers, and assess the overall 2020 census accuracy. Using 
these records, the Bureau projects savings of $1.4 billion.
    And fourth, field operations. The Bureau is looking to 
automate field data collection, establish an enterprise IT 
system for data collection and processing, the CEDCaP that so 
many of my colleagues here have discussed, streamlining field 
staffing and reduce the number of field offices. By 
reengineering field operations, the Bureau projects savings 
$2.5 billion.
    I should note that the summary above is not an exhaustive 
list of all the 2020 census innovations. The 2020 census 
operational plan identifies 34 operations, all in various 
planning stages, and over 184 design decisions requiring 
answers as of 7 months ago when the plan was released.
    OIG and other stakeholders support these innovations. Our 
concerns lie with the challenges that the Bureau faces in 
preparing these innovations for 2020 execution. More 
specifically, as we review and report on 2020 research and 
testing, we're concerned with the evaluation criteria and 
issues relating to the costs.
    We're concerned that some of the research and testing the 
Bureau is conducting lacks rigorous success criteria, meaning 
established, quantifiable benchmarks to make informed, 
empirical decisions. Without measurable success criteria, the 
Bureau and stakeholders cannot determine whether the activities 
tested will result in a better method or a better way to 
conduct the census.
    Over the past several years, we've also reported a number 
of concerns about the Bureau's cost-accounting and cost-
estimating practices. Looking at the decennial program's method 
of recording salary costs in May 2014, we reported how the 
Bureau did not adequately track project costs. Instead, 
salaries were recorded and paid on previously set budget 
allocations. In other words, actual spending on projects wasn't 
really tracked. As a result, the Bureau and stakeholders could 
not calculate the return on investments.
    Similarly, cost estimates must be documentable and 
transparent. For fiscal years 2013 through 2015, the Bureau 
lacked detail or support documenting its cost-savings estimates 
in the 2020 census R&T budget justifications. Stakeholders must 
understand how cost savings can and will be achieved.
    In September 2015, we reported on how the Bureau's 2014 
census test proved to be a missed opportunity to validate the 
cost estimates and established benchmarks for the success of 
the proposed design options. In order to accurately estimate 
what the cost of a new innovation will be in the future, the 
costs associated with the activity must be collected during the 
field test.
    And in the first half of 2016, we've issued two reports on 
the address and map database, MtDB, that will inform the 2020 
census. Again, we reported that the Bureau didn't collect cost 
data or conduct a cost-benefit analysis for one of the--for the 
2015 address validation test. Without clear, objective cost 
data, without establishing criteria by which to measure the 
outcomes of its tests, the Bureau jeopardizes meeting its cost 
and quality goals. OIG supports the Bureau's spirit of 
innovation as long as the Bureau properly tests, assesses, and 
prepares for these innovations well in advance of census day 
2020. The decennial is too important and too costly for any 
unneeded risks.
    Thank you, and I am happy to respond to any questions.
    [Prepared statement of Ms. Rice follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. I appreciate that.
    I will now recognize the gentleman from Michigan, Mr. 
Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman. And thanks to the 
panel for being here. This is a challenge, the census, but 
probably is the one benefit that comes that takes people's 
attention and minds and calls to my office off of IRS and VA 
for a while. And that is probably the only benefit, though. We 
understand it has to be done, but we want it to be done right 
and appreciate your efforts at that point.
    Mr. Thompson, how reliant will the census 2020 be on 
CEDCaP?
    Mr. Thompson. Congressman, CEDCaP is a key component for 
the 2020 census. It has a number of important systems that will 
be used in 2020. Those systems will also be reused for the 
enterprise, but we do depend on CEDCaP very heavily, and that's 
why we give it so much attention.
    Mr. Walberg. It is apparent that you will be extremely 
reliant on CEDCaP for important reasons, but is it safe to say 
that CEDCaP and the reliance on it will not go as planned or 
achieve the $5.2 billion in planned savings--2020 won't achieve 
that without CEDCaP?
    Mr. Thompson. As I said, it's a critical part of the 2020 
census. It--we are delivering key systems to support 2020 that 
are part of CEDCaP. And so yes, some of the systems that we 
rely on in CEDCaP like our control systems and our mobile 
technology systems are key to achieving parts of the--large 
parts of the savings.
    Mr. Walberg. Let me toss a similar question over to Ms. 
Harris. Is it safe to stay--let me just restate it. Is it safe 
to say that census 2020 is extremely reliant on CEDCaP and will 
not go as planned or achieve the $5.2 billion in planned 
savings without CEDCaP?
    Ms. Harris. Yes, sir.
    Mr. Walberg. So it is extremely important. What are, Mr. 
Thompson, the top three risks facing the 2020 program and the 
CEDCaP program?
    Mr. Thompson. So the top risk we face is cybersecurity, and 
we're doing a lot, as Mr. Cooper mentioned, on cybersecurity. 
Another significant resource we face, which we admit today, is 
maintaining the adequate resources and funding to build the 
systems. And the third big risk is that--that we have to 
mitigate is making sure that all the systems are integrated 
together, which is why our 2018 end-to-end test is so critical.
    Mr. Walberg. Could you give us more specifics on how you 
are trying to mitigate those risks? And I appreciate those 
three are, I think, what we are all looking at. What is the 
mitigation?
    Mr. Thompson. So I would let either Mr. Cooper or Mr. Lee 
really talk about cybersecurity because they're the ones we 
rely ----
    Mr. Walberg. Okay.
    Mr. Thompson.--for that.
    Mr. Walberg. Mr. Cooper?
    Mr. Cooper. Thank you. We are taking every known set of 
steps and operations that we can take. They include working 
with other Federal agencies and colleagues across the Federal 
enterprise--the Department of Homeland Security, law 
enforcement agencies, appropriate other agencies--to ensure 
that we are implementing things like Department of Homeland 
Security's EINSTEIN program, which scans the network for any 
indicators of compromise, helps us identify threats and 
vulnerabilities.
    We are using a layered in depth set of defenses, so that 
includes encryption of data at rest, in transit, and whenever 
it's being moved from one environment to another environment. 
That helps us significantly improve our cyber capabilities 
against any possible breach that might actually access data.
    However, we have taken steps to minimize the likelihood of 
any data breach of census data because the repositories of 
census data are not Internet-accessible. They're isolated from 
the Internet. That significantly reduces the operational threat 
from bad actors.
    In addition, we have deployed censors both across the 
perimeter of our public-facing sites. We have censors at our 
application layer, at our data layer, and we continue to 
identify working with external private-sector partners more 
advanced methodologies and software capabilities to 
continuously improve and enhance our cyber posture.
    Mr. Walberg. I see my time is expired. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. I guess, Director Thompson and Director 
Harris, this decennial census is making the most use of 
technological innovations that weren't possible 10 years ago. A 
reliance on the Internet and solutions like the handheld 
electronic collection devices could mean more accurate census 
data and make collecting it faster and cheaper, but earlier, 
the chairman mentioned that the handheld operable device did 
not work in a prior test. Does the handheld device you are 
using now work, and has it been tested? I'll ask Director 
Harris.
    Ms. Harris. Actually, I think that question would be 
probably more appropriately directed to Mr. Lee.
    Mrs. Maloney. Okay. Mr. Lee then. The handheld device that 
you are currently using, has that been tested? Is it working?
    Mr. Lee. Yes. We currently use those devices in the field 
for our tests and I believe have actually brought examples.
    Mrs. Maloney. Okay. Great.
    Mr. Lee. We have a Samsung Android device, and we also have 
an iPhone Apple device that the enumerators use in the field, 
are highly secure. The data that's collected is encrypted. When 
it's transmitted, it's encrypted. The enumerators can work 
their case list, availability of work, schedule their work 
availability times. They can call the service center for 
support if they need it, and they can provide their expense and 
travel reporting on this device.
    Mrs. Maloney. Is that part of the $5 billion savings or is 
that a separate category of savings?
    Mr. Lee. The use of these devices in the field with the 
reduced number of personnel should be part of the $5.2 billion 
savings.
    Mrs. Maloney. Okay. Director Thompson, you know, we have a 
whole set of new technologies that you have mentioned. Would it 
be feasible, since it is so important to meet the timelines 
that we have to meet, as my colleagues have pointed out, would 
it be feasible to work towards implementing only the IT 
required for the 2020 census and leave the rest of the CEDCaP 
implementation until after we know that the 2020 census 
technology is in place and usable and functioning and working? 
Director Thompson?
    Mr. Thompson. Congresswoman, thank you for the question. We 
have at the Bureau prioritized the CEDCaP work towards ensuring 
success for those systems necessary for 2020, and those are --
--
    Mrs. Maloney. Okay.
    Mr. Thompson.--the first systems we're delivering. After we 
deliver those systems, then we're going to work on other 
systems. But the 2020 census has priority for the CEDCaP 
program.
    Mrs. Maloney. And, Director Harris, you heard Mr. Cooper go 
through the steps they are taking. What other steps can the 
Bureau take to ensure that testing is completed and on time?
    Ms. Harris. Well, Ranking Member Maloney, I appreciate the 
question. The first and foremost thing that we have to keep in 
mind is a time available that's remaining. We have less than a 
year-and-a-half. And given the complexity and the scope of the 
CEDCaP program--it is a systems-of-systems initiative--the best 
thing that they can do to ensure that they will be in a 
position to adequately test all these systems is to reduce the 
complexity and scope of this initiative.
    And so that would mean that, in addition to what Director 
Thompson is saying of making the priority 2020 program versus 
ACS or the economic survey and other programs, what they can 
do, for example, is identify other areas of CEDCaP where it may 
not potentially give them the most bang for their buck. One 
example of that is non-ID processing where, at this time, 
automating that particular piece of functionality is still 
something that they are in the exploratory phase of. And given 
that we are in year 6, that is something that I would strongly 
consider that they drop off the table.
    Mrs. Maloney. Your response?
    Mr. Thompson. So I can start.
    Mrs. Maloney. Okay.
    Mr. Thompson. We are constantly evaluating the CEDCaP 
program against schedule and functionality and deliverability 
with an eye towards making sure that we can deliver a 
functional integrated system for the 2018 end-to-end test. And 
to date we feel that we are on schedule to deliver that system.
    Mrs. Maloney. Well, let's just talk about your fallback 
plan. What if you test it and you are not able to produce it? 
Can you fall back to a paper and pencil? We are moving into the 
21st century, congratulations. I support that effort. But what 
happens? What is the fallback plan? We always look for that. 
So, Director Thompson, you had testified earlier that you 
didn't think that we could fall back to a paper-and-pencil 
approach. What is your response? What is the fallback plan, or 
is there one?
    Mr. Thompson. So our plan--well, let me first start by 
saying that, right now, we estimate that we're going to do 
about 20 percent of the households in the United States with 
paper and pencil because ----
    Mrs. Maloney. Okay.
    Mr. Thompson.--we don't believe that there's Internet 
access, and we believe that people would prefer to respond by 
paper and pencil. So right off the bat we're going to start 
with 20 percent just because--that's as of today.
    Secondly, what we are doing, as I said, we're constantly 
evaluating the CEDCaP program and the other 2020 programs so 
that what we put in place for the 2018 end-to-end test will be 
the systems that we use for 2020. And the--so if we can't 
develop certain capabilities by 2018, then those capabilities 
will not be included in 2020, and of course, we'll make sure 
that we update the committee and all other stakeholders on 
this--these--this progress as it develops.
    Mrs. Maloney. My time is expired. Thank you.
    Chairman Chaffetz. I thank the gentlewoman.
    I now recognize the gentleman from Texas, Mr. Farenthold, 
for 5 minutes.
    Mr. Farenthold. Thank you, Chairman Chaffetz.
    Director Thompson, we visited about some of these issues 
before, and I want to follow up and see where we are. Let's 
talk about the cloud-based gathering system. How much of this 
is in-house versus how much of it is contracted out to, you 
know, a third-party cloud provider, say, Amazon or Rackspace, 
some company like that? Mr. Cooper, if you want to jump in on 
that.
    Mr. Thompson. I think Mr. Cooper might ----
    Mr. Farenthold. All right. Super.
    Mr. Cooper. Yes, I think maybe Mr. Lee and myself ----
    Mr. Farenthold. Okay.
    Mr. Cooper.--may be better positioned to ----
    Mr. Farenthold. That is fine.
    Mr. Cooper. The--it really becomes what most of us in the 
CIO community refer to as a hybrid cloud. That means that our 
intent is to use a data environment with a cloud service 
provider but that is isolated. It's private. It's considered a 
private cloud ----
    Mr. Farenthold. Right.
    Mr. Cooper.--accessible only by authorized Census Bureau 
officials.
    Mr. Farenthold. My point is how much of it do you all own 
and how much of it are you renting time from somebody else?
    Mr. Cooper. Harry ----
    Mr. Farenthold. Do you have rough percentages or anything?
    Mr. Lee. I wish I could give you exact percentages right 
now, but let me answer how we'll determine that. We've 
identified what we think are the systems that need high 
scalability where we do not want to have to provision ----
    Mr. Farenthold. Right.
    Mr. Lee.--resources within our own data center. We have--
currently have a cloud contract in place that we're testing 
against. We've done some performance testing and scalability --
--
    Mr. Farenthold. All right.
    Mr. Lee.--so ----
    Mr. Farenthold. Again, I think you are getting to my point. 
If we run a massive data operation for several months every 10 
years, so the more of that you outsource and don't have to buy 
computers, the better off we are because the rest of those 9 
years the computers sit mainly unused, and 10 years down the 
road, you are not going to want to use a 10-year-old computer 
again. So if you, you know ----
    Mr. Lee. Exactly. And so one of the things we've done early 
on is we've identified what are those inputs that might have 
high performance and capacity requirements. We've built models.
    Mr. Farenthold. Right.
    Mr. Lee. And as we conduct our tests, we update those 
models to predict what will the capacity and the workload be 
during the census so we can have those resources in a cloud-
based ----
    Mr. Farenthold. Right, and ----
    Mr. Lee.--environment.
    Mr. Farenthold.--these cloud companies understand this. 
They scale very well. I noticed you held up an Android. It 
looked like an S5. It may have been an S6; I couldn't tell from 
here. Are we going to provide those to the enumerators are or 
is it going to be a bring-your-own device system?
    Mr. Cooper. Well, I can start. The Census Bureau made a 
decision. Originally the thinking was to use a bring-your-own 
device. But the evaluation, the field tests and everything 
demonstrated that that was not going to be both operationally 
effective, and it would not be cost-effective. So we have now 
made ----
    Mr. Farenthold. Why would it be more cost-effective to give 
somebody a $400 to $500 mobile device as opposed to an app that 
they could just download on a mobile device they already have?
    Mr. Cooper. Because of the wide variety of operating 
systems and potential differences in phones that might meet the 
common set of thresholds. So the decision has now been made to 
move to a device as a service approach. So in fact the vendor 
selected through a competitive process will actually supply the 
devices.
    Mr. Farenthold. All right. And so ----
    Mr. Cooper. That also is ----
    Mr. Farenthold. So then in 2021 I might be able to get a 
really cheap used cell phone ----
    Mr. Cooper. Yes, sir.
    Mr. Farenthold.--that was actually used by a census 
enumerator, right?
    Mr. Cooper. Yes, sir. And it will be completely scrubbed of 
any data.
    Mr. Farenthold. All right. I guess the other question is 
with respect to security. You talked a little bit about using 
the best practices in the EINSTEIN system. Wasn't EINSTEIN in 
place when the OPM was breached? It really doesn't stop the 
breaches. It tells you hopefully a lot sooner than when the OPM 
did it that you have got a problem.
    Mr. Cooper. Yes, I would agree with that statement. I think 
what we might say is that EINSTEIN is necessary but not 
sufficient. EINSTEIN alone, as you've stated, won't protect us 
against everything. That's the reason for the additional 
measures we are taking in our cyber in-depth ----
    Mr. Farenthold. And finally ----
    Mr. Cooper.--approach.
    Mr. Farenthold.--how important a target, I guess, do you 
consider yourself? I mean, most of the data that you collect 
will eventually be made publicly available? Obviously, not all 
of it, but a vast majority of it you will just be able to 
download without having to hack in.
    Mr. Cooper. True, but with one very, very, very important 
distinction, okay? Data that will be eventually released will 
be anonymized. Data that we collect is personally identifiable 
information, and it also includes business intelligence type of 
information.
    Mr. Farenthold. All right. I see my time ----
    Mr. Cooper. Therefore, we have a responsibility ----
    Mr. Farenthold. I am not questioning that. Again, I am just 
curious as to how you all view that.
    And I see my time is expired. Thank you.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentlewoman from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you very much, Mr. Chairman, and I thank 
all of you for very helpful testimony and commend you for how 
far you have gotten thus far.
    During the last census, we had hearings that brought out 
what was apparently an issue that the census Director Thompson 
had never even thought much about, and that is how inmates, how 
prisoners are counted. This is an issue that has a lot of 
complexity and affects millions more who are not in prison than 
are in prison.
    Apparently, the way in which the census handles this matter 
is to simply--the easiest thing you could do is what you would 
have done, I suppose, when the census first began, just count 
them where they are in the State prisons, in the prisons where 
they were, and individuals in State prisons may not be counted 
as a part of the congressional district, for example, that they 
come from. And in the Federal prisons, they may not count as 
residents of their State at all.
    Now, the District of Columbia is unique. I wouldn't want to 
go off on that because all of our prisoners, because we were 
the only city that carries the functions. All of ours are in 
Federal prisons. But it really does pertain to every Member of 
Congress because the Federal prison has people who are from 
various States, and they are in various States while they are 
in prison.
    I don't need to tell you that people look to the census 
with great interest because funds for everything from TANF to 
the surface transportation bill to community and mental health 
that affect their communities that rely on the census. And 
therefore, many more people are affected who are not in 
prisons.
    Well, some States have recognized the undemocratic nature 
and frankly the unprofessional nature of the way in which the 
census has been doing it because the State Legislatures in some 
states have required counting prisoners where they normally 
reside rather than the prison where they are held, which 
inflates obviously in the most unfair way what some communities 
receive and deflate what others receive.
    Now, only in May of this year--and this was a big problem 
in the last census--do I understand that the census requested 
comments. I don't even know whether this was an open-ended 
question, whether it was a rule, but I would like to ask you, 
Director Thompson, what kind of question was asked. I note 
nothing has been published. And how will you count people who 
are in prison in the 2020 census?
    Mr. Thompson. Thank you, Congresswoman.
    So after every census we look at the rules we use to 
determine where to count people, and we evaluate them against 
the 1790 Census Act, which says essentially that we count 
people where they usually live or sleep. So what we did for 
this census was we put out the rules that we used for 2010, and 
in 2010 we counted prisoners in the prisons.
    We put those rules out for comment, for public comment 
through the Federal Register process. We got a number of 
comments. Most of the comments centered on where to count 
prisoners and where to count the deployed military. We are in 
the process of evaluating those comments and putting out in a 
Federal Register notice again for comment the proposed rules we 
will use for 2020 so we can receive public comment on our 
proposal, and then we can proceed to making a final decision.
    But that's where we are right now, and we anticipate that 
the Federal Register notice will come out before the end of 
June.
    Ms. Norton. Before the end of June there will be a Federal 
Register notice that says what? I'm sorry.
    Mr. Thompson. There'll be a Federal Register notice that 
gives our proposal for the rules that ----
    Ms. Norton. There will be a rule, in other words?
    Mr. Thompson. No, it'll be a proposal for comment. We will 
say this is how we propose to count various people, including 
prisoners, college students, the deployed military, and that 
will be out for public comment.
    Ms. Norton. You said June. That is this month.
    Mr. Thompson. That's this month, yes.
    Ms. Norton. Thank you very much, Director Thompson.
    Chairman Chaffetz. Thank you. I am going to recognize 
myself for 5 minutes.
    Mr. Thompson, you say you are on time, on schedule, 
correct?
    Mr. Thompson. Yes.
    Chairman Chaffetz. Ms. Harris, from your perspective, I 
believe there are 17 key items that needed to be purchased or 
secured, contracts let. From your perspective, are they on 
time, on schedule?
    Ms. Harris. I think it's--the answer--the short answer is 
no. I do believe that--the CEDCaP implementation schedules for 
those 17 solutions that I mentioned have not yet been 
determined, so I don't think the Bureau is in a position to say 
that they are on schedule because that implementation schedule 
is a critical component of the CEDCaP program, and until that 
schedule is defined, it's--I don't--I think they're in a 
difficult position to say that they're on time and on schedule.
    Chairman Chaffetz. So the concern is that they don't have a 
schedule and that they are not integrated--there is no 
compatibility if you examine the two different schedules that 
are out there, correct? Explain that a little bit more to me in 
depth. You have looked at it.
    Ms. Harris. Sure. So the first--so when I first said about 
there's a lack of an implementation schedule, that's for the 
most recent decision that they made to go with the cuts for 
roughly half of the CEDCaP solutions. And so that schedule will 
currently be defined by the vendor that they have selected, and 
until that schedule comes out, I think it's hard for them to 
say that they are on time and on schedule.
    The second piece of that is the current process in which 
the 2020 and CEDCaP programs are managing their 
interdependencies is inefficient. So they currently have a 
total of four schedules that they are managing. They're 
managing their own program schedules, and then they have these 
two interdependent schedules, which, you know, the 2020 program 
is managing their interdependent schedule, which identifies the 
dependencies with CEDCaP and then vice versa. So there are a 
total of four schedules, as opposed to having a single 
integrated interdependency schedule, which is what best 
practices call for.
    Chairman Chaffetz. Mr. Thompson?
    Mr. Thompson. So we are meeting all of the CEDCaP 
milestones. We go through a number of reviews with our 
colleagues at the Department of Commerce.
    Chairman Chaffetz. Are those published? I mean, Ms. Harris 
is a pretty serious person. She doesn't think you met any of 
them, and you think you are on schedule. Are they published or 
is it in writing somewhere?
    Mr. Thompson. So I think what Ms. Harris is referring to is 
we've just made a decision in May about build or buy, which we 
had planned to make. We've made that decision. We now have to--
now that we've made the decision to build--I mean buy, we have 
to work at a new schedule and new costs based on that solution, 
but we also have a schedule for doing that.
    Chairman Chaffetz. So you have a schedule to develop the 
schedule ----
    Mr. Thompson. Yes.
    Chairman Chaffetz.--but you say you are on schedule? Did I 
get that right?
    Mr. Thompson. Yes, Congressman.
    Chairman Chaffetz. Okay. So it doesn't engender a whole lot 
of confidence. You say you are going to be $5 billion less than 
last time? And last time, they were $3 billion over budget.
    Mr. Thompson. Well, Congressman, so far the testing we've 
done has been demonstrating that we are going to save--get--hit 
the efficiencies that we need ----
    Chairman Chaffetz. But you haven't even secured the 
vendors. You have just last month developed a schedule to 
develop a schedule ----
    Mr. Thompson. Yes.
    Chairman Chaffetz.--to secure a vendor, of which none of 
those contracts have been let, correct?
    Mr. Thompson. That's not correct. We have ----
    Chairman Chaffetz. What did I get wrong there?
    Mr. Thompson. We have a vendor right now that we identified 
and will have a contract with.
    Chairman Chaffetz. Who's that?
    Mr. Thompson. It's Pegasystems.
    Chairman Chaffetz. To do what?
    Mr. Thompson. They're going to provide the platform that we 
will use to build out, as Ms. Harris noted, 6 of the 12 CEDCaP 
capabilities.
    Chairman Chaffetz. And you are sure ----
    Mr. Thompson. So let me go back a little bit. So, as you 
know, I actually ran the 2000 census, decennial census, and 
that census was delivered on time, on schedule, on budget. We 
are ahead of the pace that we were for delivering the 2000 
census. We released an operational plan which had a detailed 
schedule for decisions, it had rationales for what we've 
learned from our testing, what we're going to be testing, when 
we're going to be delivering things. We released that 3 years 
earlier than we did in 2010. And it did have a very detailed 
schedule. We have very detailed schedules of what we have to do 
to be ready for the 2020 census, including a clear critical 
path to get to the 2018 end-to-end test.
    Chairman Chaffetz. Okay. Ms. Harris and Ms. Rice, can you 
please offer perspective on that?
    Ms. Harris. Mr. Chairman, I don't--I think the comparison 
to 2010 is one that can't be made. I mean, I think it's 
comparing apples to oranges ----
    Chairman Chaffetz. Well, he was comparing 2000, correct?
    Ms. Harris. Or even 2000 ----
    Chairman Chaffetz. Right.
    Ms. Harris.--because, quite frankly, the operations that 
they are intending to deploy for 2020 will be completely 
different from what it will look like in 2010 and 2000. So to 
say that the operational plan is released 3 years in advance, I 
think that my concern is that that puts us into--or lulls us 
into a false sense of security--or, I'm sorry, a false sense of 
confidence because, quite frankly, with a year-and-a-half 
remaining before the 2018 end-to-end test, the fact that the 17 
solutions have not yet started implementation is of great 
concern to us based on the history of what occurred in 2010 but 
also based on what we have seen across the Federal Government 
in deploying these major IT modernization efforts, a system-of-
system efforts.
    Chairman Chaffetz. And, Ms. Rice, did you care to comment?
    Ms. Rice. With respect to the CEDCaP progress, we just 
initiated an audit, so unfortunately ----
    Chairman Chaffetz. Okay.
    Ms. Rice.--I don't have any insight onto their schedule.
    Chairman Chaffetz. Fair enough. My time is expired. I will 
now recognize Mrs. Watson Coleman for 5 minutes.
    Mrs. Watson Coleman. Thank you, Mr. Chairman, and thank you 
for holding this hearing. It is good to have this discussion so 
that we can make sure that the information we are collecting is 
accurate, that the processes that we are using are cost-
effective and are efficient. So I am glad to hear that, and I 
am sure the rest of my colleagues will pursue that.
    I want to talk to you, Mr. Thompson in particular, about 
something very important to me. In April we sent you a letter, 
about 80 of us, a bipartisan, bicameral letter to you urging 
the addition of questions regarding sexual orientation and 
identity, and we think that these are very important questions 
to be added when we are collecting this information because it 
helps us to understand demographics, the needs, where 
discrimination is taking place, and helps to identify solutions 
at some point.
    And so with that in mind, I wanted to know if you had the 
opportunity to look at this letter and if you all are indeed 
thinking about adding questions to this collection of 
information that addresses this community.
    Mr. Thompson. Yes, I did receive the letter. I read it very 
carefully. I thought it was a very well-written, well-thought-
out letter that--an aside. So--and we take it very seriously. 
So right now, we are in the process of going through a final 
review with all of the agencies that require information 
collection on the American Community Survey and the decennial 
census. And this is certainly a topic that we are discussing 
with them about the needs for collection of this information 
for various purposes.
    I should also note that we do already collect this 
information on several of the surveys that we do at the Census 
Bureau, so we collect it on the National Health Interview 
Survey, and we collect it on the National Crime Victimization 
Survey.
    Mrs. Watson Coleman. As our collective communities are 
evolving on this understanding of this community and the 
uniqueness of some of their issues, I would think that we need 
to make sure that we have a comprehensive understanding of what 
that community looks like, where it is located, what its needs 
are, and what the impact of public policy and services are in 
that community. So I am glad to see that we are looking at it 
and that we can collect it in a way that everyone can use it 
and we have an understanding of how this will also inform 
public policy.
    Thank you, and I yield back my time.
    Chairman Chaffetz. I thank the gentlewoman.
    I will now recognize ----
    Mr. Connolly. Would my colleague yield?
    Mrs. Watson Coleman. Yes, I will. Thank you.
    Mr. Connolly. I thank my friend.
    I have got to ask, Director Thompson, you are from 
Philadelphia, Baltimore, or Canada?
    Mr. Thompson. I'm from Washington, D.C.
    Mr. Connolly. Oh, okay, Washington. As you know, when you 
say o-u-t, you say it as a diphthong. There aren't many places 
in the U.S. that do that, so okay. Washington does it, original 
Washington.
    Mr. Thompson. Yes, third generation Washington, D.C.
    Mr. Connolly. Director Harris, you talked in your testimony 
about phishing and the threat from that. Are you worried that 
the 2020 census reliance on the Internet will create an 
additional risk in that regard?
    Ms. Harris. Certainly, it is a significant challenge and 
risk that the Bureau will have to build in as they implement 
the 2020 census. There's no doubt about that. I think one of 
the key things that they should be focusing in on is phishing 
education for the public. And in looking at the tests that they 
are currently doing in 2016 and 2015, we are not aware of any 
public campaigns to educate the population on phishing. So 
certainly, moving forward, that's something that they should be 
focusing on.
    Mr. Connolly. Director Thompson, can you address that, as 
well as how are you going to guarantee security of mobile 
devices that you are deploying as part of the census?
    Mr. Thompson. Sure. So we are going to have a very 
substantial communications program for the 2020 census, and, in 
fact, we're going to be awarding the contract for that 
integrated campaign this year, by August. And as part of that, 
we will certainly be notifying the public about the census, 
about phishing, about other things, about security because a 
message that has--it's clear one message that has to get out is 
that the information provided to the Census Bureau will be 
secure and safe. So that will be part of the work we do. We 
have not mounted a large publicity campaign at this point, but 
we do have that in our plans and in our future budgeting.
    I'll let--I mean, essentially for the security, we encrypt 
the data at rest and transit, and we ----
    Mr. Connolly. And real quickly, Mr. Cooper, you are shaking 
your head yes. You are confident that it is secure?
    Mr. Cooper. I'm confident that we're taking every step we 
can possibly take to make it as secure as we can make it.
    Mr. Connolly. Thank you. Thank you to my colleague. I yield 
back, and I thank the chair, and I thank diphthong John 
Thompson for ----
    Chairman Chaffetz. Thank you. I will now recognize the 
gentleman from North Carolina, Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Director Thompson, I want to thank you. I want to thank 
your team. I mean, these are not pleasant hearings. They are 
meant to highlight our problems, and so I don't want any of my 
questioning to be viewed as anything other than trying to work 
with you.
    I do have some significant concerns, and I guess what 
percentage of the technology, the IT technology, has been 
procured at this particular point?
    Mr. Thompson. Well, Congressman, what we have----
    Mr. Meadows. Do we know?
    Mr. Thompson. So we have procured the technology that we 
have needed to conduct our census tests.
    Mr. Meadows. And that is a great answer to ----
    Mr. Thompson. And then what ----
    Mr. Meadows.--a question I didn't ask ----
    Mr. Thompson. No, no, no, no, no ----
    Mr. Meadows.--but what percentage ----
    Mr. Thompson. What ----
    Mr. Meadows. I mean, I am trying to figure out how much of 
the decisions have we already made? Because let me tell you 
what I am hearing from stakeholders and they are real concerned 
that we are buying parts of it and they are not interfacing. We 
are not doing--and that we are really making decisions but they 
are not systemic decisions that will ultimately produce a 
result. So how much of the technology, IT technology decisions 
have we made? Mr. Lee, do you know?
    Mr. Lee. The number of decisions or the percentage of 
infrastructure that--you had two questions.
    Mr. Meadows. Give me both.
    Mr. Lee. All right. I don't have the exact percentage of 
the decisions that have been ----
    Mr. Meadows. Because when I ask the question, I hear 
crickets on the other end ----
    Mr. Lee. So ----
    Mr. Meadows.--and that concerns me.
    Mr. Lee. What we are doing as we deliver the 2016--'14, 
'15, '16, and '17 tests is we're actually testing on the 
infrastructure that'll be used to deliver the decennial census. 
As we test in the cloud, we identify the cloud requirements for 
scalability ----
    Mr. Meadows. All of that is great. I just ask one simple 
question. What percentage, 25 percent?
    Mr. Thompson. So ----
    Mr. Meadows. Is that high or low?
    Mr. Thompson. So, Congressman, I can--I began my testimony 
with the decisions that we've made and the decisions that 
remain to be made.
    Mr. Meadows. Okay. So ----
    Mr. Thompson. I did ----
    Mr. Meadows.--if we have the universe ----
    Mr. Thompson. I did not ----
    Mr. Meadows.--of the ones that are yet ----
    Mr. Thompson. I did not break those out by IT, non-IT. I 
can certainly break out those decisions and provide that to 
you, but I just wouldn't want to do it on the fly.
    Mr. Meadows. Mr. Cooper?
    Mr. Cooper. Okay. I'm going to go out on a limb here. From 
an--from my oversight role and responsibility, I look at it 
this way. I would say that probably we have made about 50 
percent of the decisions that we need to make, and in doing so, 
we're actually on schedule because there are decisions, as 
Director Harris has pointed out, that we've not yet reached. I 
also agree with Director Harris. Here's the dilemma. If we run 
out of time in making some of those decisions, we're then 
beginning to narrow the time frame that we have to execute 
after we've made the decision.
    Mr. Meadows. All right. So I thank you for stepping out on 
that limb. I will not hold you to 50 if it is 45 and will not 
suggest that--but that is what--but let me tell you my concern. 
Here we are about to do end-to-end testing in a year-and-a-
half, and we have made 50 percent of the decisions. Let me tell 
you, that is a disaster waiting to happen. And I guess the 
other part of it is, is we have had a chief security engineer--
how long did it take to replace him for CEDCaP? How long did 
that go vacant, Director Thompson?
    Mr. Thompson. The CIO?
    Mr. Meadows. Well, both the chief ----
    Mr. Thompson. So we ----
    Mr. Meadows. Have you hired somebody for the chief security 
engineer yet?
    Mr. Lee. The--actually, the offer is in process for that 
position.
    Mr. Meadows. So how long has it been vacant?
    Mr. Lee. I don't have the exact ----
    Mr. Meadows. Eleven months?
    Mr. Lee. I'll get back to you.
    Mr. Meadows. Eleven months? My notes say 11 months. Is that 
plus or minus a month?
    Mr. Lee. I'm not sure on the security engineer ----
    Mr. Meadows. Do you not see a problem ----
    Mr. Lee. Yes.
    Mr. Meadows.--that if we are talking about CIOs that have 
not been hired and chief security engineers that have not been 
hired, and I have 11 months, and that may or may not be 
accurate, if we can't make a decision on key personnel in 11 
months, do you not think that we are going to have a problem 
with end-to-end testing in a year-and-a-half?
    Mr. Thompson. So we have a chief security officer for the 
Census Bureau. We have a chief of our security branch. We embed 
members of that team in every project that we do, and we don't 
start a project live until we get an authority to operate and 
that gets signed off on by the CIO based on review of security. 
But we build security into every single operation that we do.
    Mr. Meadows. Okay. I am out of time, so let me--the last 
promise, Mr. Cooper, you had for the last hearing was that we 
would get a much more detailed timeline in terms of benchmarks. 
That has not been done, and that was 6 months ago, and it needs 
to be done immediately. The other part is I said if Ms. Harris 
is not happy, I am not going to be happy. Ms. Harris is not 
happy, Director Thompson, and I need you all to work closer 
together with a great team. And I believe you have a great 
team. Let's get it done so we don't get egg on our face. I'll 
yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentlewoman from Illinois, Ms. 
Kelly, for 5 minutes.
    Ms. Kelly. Thank you, Mr. Chair. I would like to thank the 
witnesses for their testimony, and I would like to discuss the 
Bureau's plan to collect 2020 census responses over the 
Internet.
    When feasible, increasing the use of available technology 
makes a lot of sense. It saves both time and money. However, 
according to its operational plan, the Bureau has set a goal of 
having 55 percent of households respond to the census via the 
Internet. This number seems fairly high, especially given that 
not everyone has Internet access at home.
    According to a January 2016 Federal Communication 
Commission report, 1 in 10 Americans does not have broadband 
Internet access. The number jumps to 39 percent of Americans 
when we look at those living in rural areas. And I have rural 
areas in my district like Pembroke Township, which is in my 
district. Director Thompson, how does the Bureau intend to 
collect information from households without Internet access?
    Mr. Thompson. Thank you, Congresswoman. We have a multi-
approach to do that. So where people would prefer to respond by 
the Internet, we make that option available initially. Where 
our data shows--and we have a lot of data on this from 
different sources--that the American people don't want to 
respond by the Internet or don't have access to the Internet, 
we plan to mail them a paper form, and we also plan to offer 
them the option to respond directly over the telephone, which 
we did not offer in previous censuses. So we're trying to make 
it easier for people to respond. Where they have the Internet, 
they can use the Internet. Where they don't have the Internet, 
they can use paper, or they can call up and be counted over the 
phone.
    Ms. Kelly. What about the use of the canvassers? Will you 
have that also?
    Mr. Thompson. Yes, ma'am. We're anticipating that we'll get 
a little over 60 percent self-response and then for the rest 
we're going to use canvassers to collect that information.
    Ms. Kelly. And do you know how many you plan to have?
    Mr. Thompson. We plan--we're planning right now to have 
about 300,000 canvassers.
    Ms. Kelly. Okay. Thank you.
    Also, my concern comes from in 2010 it seems like the 
number of minorities was undercounted, so I want to make sure, 
particularly representing the type of district I do, that that 
does not happen again. Because the Internet is such a necessity 
in the 21st century, many low-income individuals do not have a 
computer at home, but they do have the use of cell phones. So 
how will you deal with individuals and their cell phones?
    Mr. Thompson. So Congresswoman, we have optimized our 
response engine so that it will work on a cell phone, it will 
work on a tablet, or it'll work on a computer. But a cell phone 
works just fine.
    Ms. Kelly. I just want to make sure every person that can 
be counted is counted.
    Regardless of the ``digital divide,'' a 55 percent Internet 
response rate seems like a stretch given that tests conducted 
by the Census Bureau have resulted in lower rates. The 2015 
self-response test resulted in an Internet response rate of 
33.4 percent. What is the plan if the Bureau does not reach its 
goal of 55 percent of responses from the Internet? How will you 
adjust?
    Mr. Thompson. Congresswoman, we essentially believe that 
our test results still indicate that we will get about 55 
percent nationally with an advertising campaign, with a 
partnership campaign in 2020. But, of course, if we need to use 
more paper, we'll use more paper. If we need to have more 
telephone, we'll have more telephone. And ultimately, if we 
need to knock on more doors, we'll knock on more doors. But 
what we--what--our goal is to count everyone.
    Ms. Kelly. How will you benchmark that like by a certain 
time? If you don't have a certain percentage of responses, will 
you adjust? Or how do you set that goal?
    Mr. Thompson. We're constantly doing testing and evaluation 
against that. For example, we have the American Community 
Survey that we run every month. We're looking at the use of 
Internet on that. We're running various queries of the 
population to understand their preferences for response.
    Mrs. Maloney. Will the gentlelady yield?
    Ms. Kelly. Yes, I will.
    Mrs. Maloney. You raised a very important point, the 
digital divide, and I think you said we have 20 percent of 
Americans that do not have broadband. What can we do to get it 
to everybody? Everybody should have access. Mr. Thompson?
    Mr. Thompson. So I was actually--what I said is we plan to 
mail to 20 percent, which includes those that don't have access 
but also we found that there are areas of the country in 
certain population groups where the population would prefer to 
respond via mail. So ----
    Mrs. Maloney. I guess the point I am trying to make is 
everyone should have access to the Internet, and we should 
probably work as a nation to have your constituents have access 
and everybody else's constituents have access to it.
    Ms. Kelly. Yes.
    Mrs. Maloney. That would help with the census, it would 
help with the education of the children, and everything else so 
----
    Mr. Cooper. Yes ----
    Ms. Kelly. I will yield back.
    Mr. Cooper. Ranking ----
    Ms. Kelly. I am out of time.
    Mr. Cooper. Ranking Member Maloney ----
    Chairman Chaffetz. I thank the ----
    Mr. Cooper.--if I may just very quick, one of the things 
that I know the Census Bureau and the other agencies have done 
is to use community organizations like libraries, things like 
that, where cable can bring in Internet as opposed to wireless 
broadband, not a perfect solution, but it's an example of what 
can be leveraged.
    Mrs. Maloney. Okay. Thank you very much. I yield back.
    Chairman Chaffetz. The gentlewoman's time is expired.
    I will now recognize the gentleman from South Carolina, Mr. 
Mulvaney for 5 minutes.
    Mr. Mulvaney. I thank the chairman, and I thank the panel.
    I am going to do something I don't usually like to do, 
which is change gears but just a little bit. I know we have 
this conversation to talk a little about the 2020 census, but 
honestly, I don't get that many questions in my office about 
the 2020 census, at least yet. Every now and then we get folks 
calling to complain about, you know, the questions they have to 
answer and all that, but for the most part, I think folks at 
least in my district recognize that this is one of those rare 
constitutional duties. We actually have to do this, and they 
are happy to do it and to cooperate.
    I was happy to hear, by the way, that we will be reaching 
out to people beyond just the Internet, Mr. Thompson, because, 
as I was discussing with Mr. Meadows, when you represent a 
relatively rural area, I don't know what the national 
percentage is of folks who don't have Internet access or at 
least broadband access, but in my district my guess it is above 
average. So I am glad to see as much as we are transitioning to 
the new technology, not forgetting the folks who may just 
either choose or not have the opportunity to do that, not what 
I want to ask about.
    I want to talk real briefly about what they do call me 
about, which is the American Community Survey because that they 
don't get. And I assume, Mr. Thompson, I can ask you these 
questions about the survey a little bit. So, you know, why is 
what I can't get--I know why we count and I know that 
traditionally in the census we have asked a little bit more 
than just how many people live there and how many people are 
you. I get that, but I don't understand why we are asking about 
number of flushed toilets and the interracial mix of people in 
the buildings, and I don't understand the fines. So tell me a 
little bit why are we doing this? Do we need to do this in 
order to fulfill the constitutional obligations?
    Mr. Thompson. Thank you, Congressman. So the American 
Community Survey replaced what used to be the census long form, 
which was a sample of longer forms as part of the decennial 
census ----
    Mr. Mulvaney. I remember it. And some people used to--every 
----
    Mr. Thompson. Every sixth house about.
    Mr. Mulvaney. Got you.
    Mr. Thompson. And that was used to allocate Federal dollars 
based on requests from different agencies. So we moved the long 
form to the American Community Survey so we can produce more 
accurate, more timely information than every 10 years. And we 
work with the Federal agencies to make sure that--we've done--
we just did a big review of every question on the American 
Community Survey to make sure that there is a definitive need 
to collect that information to support a Federal program. Over 
$400 billion are allocated based on the American Community 
Survey data.
    However, we've also heard and very strongly that there are 
concerns with the length of the American Community Survey. 
There are concerns with the mandatory message on the American 
Community Survey. And we have undertaken--and it's--and I could 
get you this. It's on our Web site. We've undertaken a program, 
a four-point program, to look at how we can make the American 
Community Survey less intrusive, how we can use other Federal 
records to reduce the burden on respondents.
    And I also need to say that our goal is not to threaten the 
American people with fines or jail but to convince them of the 
importance to respond because what the information will do for 
their community.
    Mr. Mulvaney. And I get that. And if I get it, I will 
probably fill it out because I would look at it as a civic duty 
and it doesn't offend me, provided that the questions are not 
too intrusive. I get that. I then when I was a younger man, my 
family actually got the long form, so I am a little bit 
familiar with it. But if I am a family who just doesn't want to 
do that, I want to meet my constitutional obligations, I want 
to fill out the new shorter form of the census, but I get the 
American Community Survey as well. Do you fine people for not 
turning this stuff in?
    Mr. Thompson. No, Congressman.
    Mr. Mulvaney. Have you ever put anybody in jail for not 
turning this stuff in?
    Mr. Thompson. No, Congressman.
    Mr. Mulvaney. All right. In that case ----
    Mr. Thompson. In fact, Congressman, I need to say we--the 
Census Bureau is not an enforcement agency. We're a statistical 
agency. We'd have to get the Department of Justice to do that, 
but we have never asked.
    Mr. Mulvaney. And you are not aware of the Department of 
Justice fining anybody for this? Okay. Mr. Chairman, we may 
want to just change the law because we are actually doing that 
it is not enforcing the law because a previous Congress in its 
infinite wisdom, which is one of those things that makes me 
giggle when I say it, decided that there should be up to a 
$5,000 fine and jail time for not filling this thing out. So 
maybe it is something we should look at, making your life a 
little bit easier. You spoke to the importance of sort of 
toning down the mandatory language of that, and I think that is 
encouraging.
    Folks want to be good citizens, they want to participate, 
they want to get you good information, but there is also stuff 
they might not want to tell you and to tell them that they 
might go to jail, have to pay a fine if they don't might be not 
the best kind of relationship we want to have with the 
taxpayers. So I appreciate your input on that, Mr. Thompson.
    Chairman Chaffetz. Would the gentleman yield?
    Mr. Mulvaney. I thank the chair.
    Chairman Chaffetz. It does say ----
    Mr. Mulvaney. I yield.
    Chairman Chaffetz. Does it say that on the envelope or ----
    Mr. Mulvaney. It used to at least last time it went out.
    Mr. Thompson. Right now, it says on the envelope ``your 
response is mandatory and required by law.'' We are looking 
at--we are doing research--as we speak, we've done research on 
looking at changing that message because we've heard of the 
concerns that have been expressed. So we're actively 
researching that.
    Mr. Mulvaney. Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from Virginia, Mr. Connolly, 
for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And we probably do want to change that language, but on the 
other hand, I would just counsel you, Mr. Thompson, you know, 
what some people find intrusive others find a rich trove of 
necessary data in preparing updated profiles of the country. It 
may seem silly to ask about, you know, indoor plumbing, but 
that is actually an important index in terms of progress made 
or not made in the United States, especially as perhaps one 
index of poverty.
    So there is a lot of data we don't want to lose because 
some people may find it objectionable. On the other hand, I 
agree with my friend Mr. Mulvaney. We have got to be careful 
about being overly intrusive, and there is a fine line there. 
But I remain concerned that we are not losing rich data that 
helps put together a fuller profile of the United States at any 
given period of time.
    My friend Mr. Meadows said that if Ms. Harris is unhappy, 
he is unhappy, you know, sort of like if momma ain't happy, 
nobody is happy. Mr. Thompson, one of the things I guess that 
made Ms. Harris unhappy if she was unhappy--she doesn't look 
like an unhappy person to me but--was she said that it was 
apples and oranges to compare where you are in preparation to 
where you were in 2000 or even 2010.
    I would like you to comment on that because that suggests 
that it is misleading to say, well, we are actually ahead of 
where we were and in 2000, you know, we were on budget, we were 
on time, everything was fine. So we are at least that good 
right now. She is saying false comparison.
    Mr. Thompson. So I really wasn't--let me first say that my 
staff ----
    Mr. Connolly. I should say to you I think diphthongs are 
good things ----
    Mr. Thompson. Thank you.
    Mr. Connolly.--so it is not a pejorative thing to call you 
Diphthong John.
    Mr. Thompson. So let me first say that we respect and value 
our working relationship with the GAO and with the Office of 
the Inspector General.
    Mr. Connolly. Make you happy, Ms. Harris? He values the 
relationship?
    Ms. Harris. Yes, and I ----
    Mr. Connolly. See, there is a smile. Mark, it is getting 
better.
    Mr. Thompson. No, no, no. I mean, you need--we value input 
into what we're doing. We value review. We're trying to do this 
census as open ----
    Mr. Connolly. Yes, but I am trying to get at the question 
----
    Mr. Thompson. Okay. So--okay.
    Mr. Connolly.--is it apples and oranges ----
    Mr. Thompson. So ----
    Mr. Connolly.--in your point of view?
    Mr. Thompson. So what I was saying was that--I was saying 
that is I do have experience in putting together schedules and 
delivering on schedules. And there are different censuses, but 
the point is, is that we do have what I believe is a schedule 
that will lead us to a successful 2020 census.
    And I value discussing this with the GAO on a continued 
basis. I value discussing it with the Office of Inspector 
General, and ultimately, I would like to agree with Mr. Meadows 
that everybody is happy about this, including the GAO, 
including us, and including the Congress. But we're going to 
continue to do this census in a really open way. We don't--
we're not doing it behind closed doors. Every quarter we go out 
with a detailed project management review that's open to the 
public to say where we are, what our challenges are, what we've 
learned, what we still have to do. So we're trying to be very, 
very open about it, and we're going to continue to do that.
    Mr. Connolly. But I think Mr. Meadows was making the point 
with the best of intentions and conceding we have got a good 
team and we are all happy and we think we are making benchmarks 
that are successful, what if we are wrong? What if we got that 
wrong and with the best of intentions and efforts we have egg 
on our face is I think what he said? That is what we are trying 
to avoid, too, I mean, because we have had bad experiences as 
well as good ones.
    Mr. Thompson. That is our major goal is to do the census 
accurately, on time, without having some of the issues that 
arose in the previous census. And again, that's why we're being 
so open about what we're doing. And as we make ----
    Mr. Connolly. Well ----
    Mr. Thompson.--decisions going towards the 2018 end-to-end 
test, they will be out there and people can evaluate ----
    Mr. Connolly. Well, speaking of being open, Mr. Cooper, 
again, my friend from North Carolina pointed out that 6 months 
ago the committee was promised a document that laid out 
milestones so we could monitor progress. If we are going to be 
open and transparent, why don't we have that document? Why has 
it taken 6 months? When can we expect it?
    Mr. Cooper. Unfortunately, it's always embarrassing when 
one has to admit to a committee like Congress that I missed the 
date or the deadline that I committed to. Unfortunately, this 
is actually the second time that that's happened, and both of 
you gentlemen were there on the first one around, some of the 
FITARA stuff. I'm not happy about that, so you can put me in 
the unhappy category.
    However, here's what actually is going on. It turned out 
that even when I made that commitment, there was more detail 
that I was not fully exposed to yet. My role is an oversight 
role. I'm not working these programs day-to-day. I wish I were. 
It's unfortunately just not the way that we're set up, and I'm 
not sure I'd have the full capacity and bandwidth to do that.
    So I will reemphasize my commitment, and I will now ensure 
that I get the detailed timeline that I committed to. If you'll 
allow me to maybe say I'll get that as soon as I can, you have 
my commitment.
    What also is going on, we're working to integrate--you've 
heard Director Harris talk about the fact that we have multiple 
master schedules. We don't have one integrated master schedule. 
Harry and I have been talking about how can we work together to 
actually produce a single automated master schedule. We're not 
fully there. That's an accurate statement, right?
    Mr. Lee. Correct. But we're real close.
    Mr. Cooper. But we're working on that. What I had hoped --
--
    Mr. Lee. Real close.
    Mr. Cooper.--to be able to do was to be able to bring back 
in an automated way to actually see and reveal the 
significantly large number of decisions, milestones, major 
events, that type of thing, in a way that people could actually 
see it and somewhat understand all the complexity. I believe we 
will absolutely succeed in doing that, and as Harry said, we 
really are very close. But I missed the timing on it. I 
apologize for that.
    Mr. Connolly. Well, I would just say, Mr. Chairman, on 
behalf of myself and my friend Mr. Meadows, I think we are 
going to need a specific event to a deadline.
    Mr. Cooper. What's the--if I'm going to commit, can I 
confer real quick?
    Mr. Connolly. Of course.
    Mr. Cooper. End of July. Okay.
    Chairman Chaffetz. I now recognize the gentleman from 
Georgia, Mr. Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    I am going to piggy-back on Mr. Mulvaney's comments because 
I share largely the same type of concerns that he brought up. 
So, Mr. Thompson, let me begin with you. If you would, please, 
just be as brief initially on some of these answers as 
possible. Let's just go to the basis. What's the purpose of the 
census?
    Mr. Thompson. There are three primary purposes. The first 
is to reapportion the Congress. The second is to support 
redistricting efforts at the State level. And the third is to 
allocate Federal program funds. Then there are other non-
Federal uses ----
    Mr. Hice. But that last one is really not part of the 
Constitution. We want to know how many people live here, the 
bottom line. Is that true?
    Mr. Thompson. So I am--I am not a constitutional lawyer, 
and I'm probably not the right person ----
    Mr. Hice. Okay. Well, article 1, section 2 just says 
basically we need to know how many people are in the country. 
How many questions are on the census?
    Mr. Thompson. There are 10 questions on the decennial 
census.
    Mr. Hice. Okay. And the census is required for citizens to 
respond?
    Mr. Thompson. Yes, it's mandatory under title 13.
    Mr. Hice. Okay. Then shifting over to the American 
Community Survey, its purpose is totally different from the 
census, correct?
    Mr. Thompson. We consider the American Community Survey to 
be part of the decennial census program.
    Mr. Hice. But it is asking totally different questions, so 
it has a totally different purpose.
    Mr. Thompson. It's asking primarily questions for Federal 
funds allocation.
    Mr. Hice. And how many questions are on there?
    Mr. Thompson. Approximately 70, between 70 and 75. I ----
    Mr. Hice. And is it required?
    Mr. Thompson. Yes, it's mandatory.
    Mr. Hice. Okay. But you said a while ago that it is 
mandatory but fines and jail time don't happen.
    Mr. Thompson. We have never administered--required that.
    Mr. Hice. So are those bogus threats?
    Mr. Thompson. Excuse me, Congressman?
    Mr. Hice. If you have never produced a fine or put anyone 
in jail and yet you say it is mandatory with the threat of 
going to jail or being fined, but that has never happened, are 
they bogus threats? I mean you basically have admitted they are 
bogus threats.
    Mr. Thompson. We believe that the best way to get the 
American public to respond is to explain to them the value of 
responding to their community ----
    Mr. Hice. That is not value of explaining it when you said 
you are going to go to jail or you are going to have a $5,000 
fine. That says nothing about the value of the information. And 
it is bogus threats. It is putting fear in the American people 
to fill these things out.
    Are both of those, the census and the survey, sent to all 
American citizens?
    Mr. Thompson. The decennial census is sent to every 
American citizen. The American Community Survey is mailed to 
about 3.5 million households a year.
    Mr. Hice. So 1 in 6? Is that approximate?
    Mr. Thompson. I think it is about 1 in 6 over a 5-year 
period.
    Mr. Hice. Okay. And so we are trying to save money, but we 
are sending at least to 1 in 5, 1 in 6 two different forms, 
correct?
    Mr. Thompson. Exactly, Congressman.
    Mr. Hice. And they have two different purposes, and several 
have discussed, I mean, it is of no concern for census purpose 
what kind of bathroom people use or how much their salary is or 
where they work or do they have good hearing or poor hearing or 
sight. I mean there is just a lot of questions for census 
purposes that are unnecessary.
    And part of my concern is not only the massive intrusion 
to--in my opinion of government in asking some of these 
questions, but then it comes to the cybersecurity issues. And 
particularly now that we are going to more digital, there is a 
lot of personal information that has nothing to do with the 
census that could potentially be made insecure. And this 
becomes a major concern.
    Mr. Lee, do you have confidence in the cybersecurity going 
into the 2020 census?
    Mr. Lee. Yes, I do.
    Mr. Hice. How in the world can you say that when the 
systems aren't even in place yet?
    Mr. Lee. The cybersecurity controls that we do have across 
the enterprise--and let me say that I'm confident but we're 
never too confident. We're always looking to improve our 
security controls going forward so ----
    Mr. Hice. You are confident in something that doesn't even 
exist yet.
    Ms. Harris, what is your assessment, the GAO's assessment 
of cybersecurity?
    Ms. Harris. Well, I think it's difficult to effectively 
identify security measures that need to be in place for 2020 
until that final IT solutions architecture is in place. So at 
this time I can't tell you definitively the IT posture because, 
again, as you mention, the systems are not in place at this 
time.
    Mr. Hice. So is your confidence--in a scale of 1 to 10, 
where is your confidence?
    Ms. Harris. It's probably at a--it's probably at a 5 at 
this time, and I say that because the Bureau and--with the 
leadership of Mr. Lee, as well as Mr. Cooper, have been 
actively addressing the 115 information security 
recommendations that we have made relative to access controls, 
for example, configuration management, and other things.
    And it was also because of the oversight of this committee 
where at the time of our November hearing, 66 recommendations 
were implemented. As of today, about 104 have been implemented, 
but there is still additional--a significant amount of work 
that needs to be done to get to that remaining 50 percent, 
which is because the IT solutions architecture has not yet been 
fully finalized, and that needs to be done in order to identify 
the most effective IT security measures to be put in place for 
2020.
    Mr. Hice. Thank you, Mr. Chairman. We have got a long ways 
to go to plug the hole, but I appreciate you holding this 
hearing. Thank you. I yield.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentlewoman from the Virgin 
Islands, Ms. Plaskett, for 5 minutes.
    Ms. Plaskett. Thank you. Thank you, Mr. Chairman. Good 
morning, everyone.
    I just wanted to walk through some additional cost 
estimates that have been discussed here this morning. Mr. 
Thompson, I know that in November Congress appropriated $1.37 
billion for the Census Bureau, and that includes $599 million 
for the 2020 census. Do you think these funds are an adequate 
amount to prepare for the 2020 census and conduct its 
statutorily mandated duties?
    Mr. Thompson. Yes, Congresswoman.
    Ms. Plaskett. You do at this point. And in 2013 the Census 
Bureau estimated that the Census Enterprise Data Collection and 
Processing program, or CEDCaP, would cost $548 million, but in 
2015, the Bureau increased the projection to $1.14 billion. Why 
did that estimate double?
    Mr. Thompson. So there's actually two estimates. There is 
the estimate we made for the CEDCaP program. The Census Bureau 
also established--and this is based on a recommendation that we 
received from the GAO--an office of--an independent cost-
estimation office. And they prepared an independent cost 
estimate of the CEDCaP program.
    Ms. Plaskett. And what is the name of that group again?
    Mr. Thompson. Cost estimation group.
    Ms. Plaskett. And where are they--are they part of the ----
    Mr. Thompson. They're part of the Census Bureau, but they 
----
    Ms. Plaskett. Okay.
    Mr. Thompson.--report to the deputy director of the Census 
Bureau, so they don't sit in any program areas. So they 
maintain independence over the programs.
    So where we are now is we have made a major decision on the 
CEDCaP program, and that is we've made our build-versus-buy 
decision, so now we're going to prepare a new cost estimate for 
the price of CEDCaP going forward, and we're also going to do a 
new independent cost estimate that we will of course provide to 
the committee and all of our other stakeholders regarding the 
CEDCaP program and the 2020 census program.
    Ms. Plaskett. So is the $1.14 billion build or buy?
    Mr. Thompson. That was basically made when we were 
determining we would build the whole thing.
    Ms. Plaskett. And is that still what the determination is? 
Don't turn it off because we are going to talk for a little bit 
it seems like.
    Mr. Thompson. So as I said, we have just in May reached a 
major milestone in the CEDCaP program. We were analyzing should 
we build the whole system or should we buy some COTS services. 
After a very rigorous analysis, we decided that we would buy a 
significant amount of COTS services to support the CEDCaP.
    The next step now is to determine exactly what that will 
cost on a go-forward basis, and we're working on that as fast 
as we can and then we will provide that information to the 
Congress but ----
    Ms. Plaskett. Okay. And you used the term ``independent.'' 
That's a very subjective term because when I think of 
independent, I think of something that you have contracted to 
come and work. But you are saying independent and it is still 
part of the Census Bureau, right? How do they then become 
independent if they are still part of the Census Bureau?
    Mr. Thompson. So they report to the deputy director. Part 
of what we want to do at the Census Bureau is we do want to do 
independent cost estimates, which we do on all of our programs. 
We're also doing one on the 2020 census that will be available 
very soon, which we'll be happy to provide. But it's really 
based on what we want to do. We want to do independent reviews 
ourselves. We want to understand our costs and we want to have 
them looked at using best practices and validated.
    Ms. Plaskett. So it is independent of what?
    Mr. Thompson. It's independent of the people that are 
responsible for delivering ----
    Ms. Plaskett. Okay.
    Mr. Thompson.--the program.
    Ms. Plaskett. Got you. Okay. And, Ms. Harris, the cost 
estimate, the cuts of the cost of the 2020 census by $5.2 
billion, you have questioned the validity of those savings. 
What do you believe is a more realistic number or figure for 
that?
    Ms. Harris. I'm sorry, Ms. Plaskett. We've not done work to 
identify what the most accurate number would be in terms of a 
cost-savings goal. We do have work underway to evaluate the 
current 2020 cost estimate itself, but in terms of the benefits 
and quantifying those benefits, we haven't yet validated that 
$5.2 billion number.
    Ms. Plaskett. And that is what you are trying to do right 
now is a validation of it?
    Ms. Harris. That is something that we will be looking into 
moving forward. However, at this time what I can say 
definitively is that based on the operational plans for 2020, 
CEDCaP plays a major role in that $5.2 billion savings based on 
the assumptions that the Bureau is making.
    Ms. Plaskett. Okay. Thank you. Thank you, sir.
    Chairman Chaffetz. I now recognize the gentleman from 
Tennessee, Mr. Duncan, for 5 minutes.
    Mr. Duncan. Well, thank you, Mr. Chairman, and thank you 
for calling this very important hearing.
    And, Director Thompson, a few years ago someone told me 
that one of the departments had two thick books with 
biographical sketches of all the Members of Congress, and one 
of the things it had at the bottom was questions typically 
asked at hearings. And I was told that on my section that they 
said I commonly ask how much will it cost. And I got a kick out 
of that. I was surprised that they had picked that up. But I 
think sometimes we haven't asked that question enough.
    And so I was very interested in the questions of the 
gentlelady from the Virgin Islands because I was going to ask 
very similar questions. And I have taken with a big grain of 
salt all these cost estimates when we get into the billions, 
but the staff told me just a few minutes ago that the total 
cost of the 2010 census was $17.8 billion. Is that any place 
close to being correct?
    Mr. Thompson. Congressman--sorry. Congressman, the number 
I've been working with for the cost of the 2010 census was 
$12.3 billion.
    Mr. Duncan. Twelve point three billion?
    Mr. Thompson. Yes.
    Mr. Duncan. Well, then, they told me they said $17.8 
billion, and then they took the $5.2 billion off and hit me 
with a $12 billion figure for the 2020 census. But I would 
assume that--let's just say if the total cost of the 2010 
census was a little over $12 billion, then I am assuming that 
you were estimating that the costs were going to go up in 2020. 
So what are your guesses or estimates of what the total cost of 
the 2020 census is going to be right now and then where does 
the $5.2 billion come in?
    Mr. Thompson. Congressman, I think I see what's happening. 
So we estimated that if we repeated the 2010 census process in 
2020 that it would cost over $17 billion.
    Mr. Duncan. Okay. So that is where they are getting the --
--
    Mr. Thompson. But if we reengineer the process using 
technology and other modern geospatial techniques that it would 
come in about $12.5. So that's where the $5.2 is coming from.
    Mr. Duncan. And I was going to ask about this $548 million 
to upgrade the system, your estimate, and the $1.14 billion 
estimate, but you have gotten into that. You know, I will tell 
you, over the years it seems to me that we have turned the top 
people in these technology companies not only into 
multimillionaires but many of them into multibillionaires. And 
all these estimates on technology, the history for many years 
now has been that we have always low-balled all these estimates 
and all these costs.
    And you talk about saving $5.2 billion, and my guess is or 
my bet is that, you know, we are sitting here now in 2016, and 
by the time we get to 2020, which is what we are talking about 
that these cost estimates on all this technology is going to go 
way up. Then they tell us that all the computers and all these 
things, they are obsolete almost as soon as they are taken out 
of the box.
    So how confident or how good do you feel, how certain are 
you about this--I am just curious. I am going to be real 
interested in looking at the costs in 2020 and thinking back to 
your 12 point whatever billion--what was it, 12 point what, 
$12.5 billion for the total cost of the 2020 census. Well, I 
tell you this. I hope that comes about. I mean, I hope that you 
reach these $5.2 billion in savings, but I tell you, I am very, 
very skeptical that that is going to happen. But I wish you the 
best.
    Thank you, Mr. Chairman.
    Chairman Chaffetz. The gentleman yields back.
    I will now recognize the gentleman from Colorado, Mr. Buck, 
for 5 minutes.
    Mr. Buck. Thank you, Mr. Chairman.
    Director Thompson, just hit that speak button. You and I 
are going to have a conversation if that is all right. I am 
really interested in this whole process. And you mentioned to 
Congressman Hice that there are three purposes for the census. 
And many of the constituents I talk to there is really two 
reasons we have a census. One is determine how many people are 
in America, and then two, where they live. And is that a fair 
summary of the primary purpose of the census?
    Mr. Thompson. So as I said before, the first purpose of the 
census--well, first off, our goal is to count everybody in the 
United States once and only once and in the right place. Then, 
the first major use of the census is by December 31 of the 
census year, which would be 2020 in this case, we provide 50 
numbers that are used to reapportion the Congress of the United 
States. The next major deliverable for the census is between 
January and the end of March. We work with the States to 
provide them the data that they need to do redistricting. And 
then the next purpose is we conduct the American Community 
Survey, which is part of the decennial census. And that is used 
to allocate Federal program dollars.
    Mr. Buck. Okay. And that last purpose is not in the 
Constitution? That is a statutory purpose? I told you just 
leave that button on. We are going to have a nice conversation. 
But that is a statutory purpose?
    Mr. Thompson. Yes, it's statutory in our title 13, which 
directs the Census Bureau how to collect information ----
    Mr. Buck. Okay.
    Mr. Thompson.--for the census.
    Mr. Buck. And that survey asks a lot of questions that most 
of us would consider personal questions. You try to determine 
wealth, you try to determine ethnicity and race and many things 
about us as individuals.
    Mr. Thompson. Yes, Congressman, we do. We believe that the 
American Community Survey is one very necessary to the Federal 
Government to allocate over $400 billion of funds on an annual 
basis, and it's also used by businesses, it's used by community 
planners to make more ----
    Mr. Buck. That has nothing to do with my question.
    Mr. Thompson.--informed decisions.
    Mr. Buck. My question was real simple. It asks personal 
questions?
    Mr. Thompson. It asks questions to support Federal 
programs, yes. Yes.
    Mr. Buck. Okay. I am not going to get--I was trying to be 
civil about this but--okay. It asks questions--I didn't ask you 
what the purpose of them was. It asks questions about 
individuals and their personal characteristics. And many of my 
constituents find that offensive. And I am wondering is that 
the first time you have ever heard that?
    Mr. Thompson. Congressman, we heard--I've got to--let me 
back up. So over a year ago we had heard great concerns from 
the Congress, so I tried to visit with every Member House and 
Senate Appropriations and Oversight to understand the concerns 
about the survey. And as a result of that, we are doing a lot 
of work to try to address those concerns.
    Mr. Buck. So you have also heard that people find those 
invasive and some people find those to be offensive?
    Mr. Thompson. I've ----
    Mr. Buck. And I am not going to ----
    Mr. Thompson. Yes.
    Mr. Buck. I heard your answer.
    Mr. Thompson. Yes.
    Mr. Buck. And, you know, for example, I have a good friend 
who did a DNA check for some reason and found out that he is 
not who he thought he was. In fact, I have seen commercials on 
TV for Ancestry.com. I am not doing a commercial for them, but 
they talk about people that have done ancestry checks. You are 
not suggesting that someone is giving a false statement to the 
government because they didn't do a DNA check and they don't 
really know who they are; they just know what their parents 
told them? That would not be something that the Census Bureau 
is interested in doing?
    Mr. Thompson. No, we believe in self-response.
    Mr. Buck. Right. And that ----
    Mr. Thompson. Yes.
    Mr. Buck.--is a perception. I mean, we have perceptions now 
about gender identity. We have perceptions about all sorts of 
issues that are personal on the census. And my question, I 
guess, and my point is, is it not counterproductive to ask 
people questions that they consider offensive, that they 
consider invasive and at the same time try to gather the data 
that is constitutionally required, and that is how many people 
live in this country and where do they live?
    Mr. Thompson. So we work very hard to explain to the people 
that respond to both the census, the American Community Survey, 
and all of our surveys that we do the importance of responding, 
why--how the data are used, why it's so vital to our country.
    Mr. Buck. And it is vital to our country because the 
Federal Government has decided that it is going to get into 
education and transportation and all sorts of issues through 
the allocation of money and control those issues. And many 
people find that offensive that the Federal Government does 
that. And what I am suggesting to you is that the breadth of 
this survey that you are giving undermines the constitutional 
requirement that we know how many people live in this country 
and where they live so that we can have a political system that 
fairly reflects the one man, one vote, or one person, one vote 
standard that we all consider so important.
    You and I haven't had this conversation or I haven't had a 
conversation with your staff, but I have great concerns about 
the intrusiveness of the census that is taken in this country, 
and I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Alabama, Mr. 
Palmer, for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    You can keep your microphone on, Director Thompson.
    The Census Bureau 2020 report on program management 
planning states that the Bureau will offer and encourage people 
to respond via the Internet and will not require, will not 
require people to enter a unique census identification with 
their response. Instead, they can provide their address. 
Forgive me if I come across as a bit skeptical, but how would 
the Census Bureau verify that an individual respond and isn't 
providing incorrect addresses that would skew the findings of 
the survey?
    Mr. Thompson. So, Congressman, this is the 2020 census 
version of a program that we have had for a number of censuses, 
which ----
    Mr. Palmer. I am not asking you about ----
    Mr. Thompson. So ----
    Mr. Palmer.--describe the program. I just want to know ----
    Mr. Thompson. Okay. So what the--what I'm trying--what I'm 
getting at is that the Census Bureau has a lot of experience in 
accepting information that comes in but just an address. We 
used to call that our Be Counted program where we put forms out 
so people could fill them out if they thought they might not 
have been counted. What this is doing is allowing people to use 
the Internet and respond if they haven't been counted.
    We've done a number of--we--as a result of this process 
that we've built up a number of checks and balances on how to 
deal with responses that come in without an ID, and we're going 
to continue to do that for 2020.
    Mr. Palmer. Ms. Harris, given the previous testimony about 
the potential risk with reliance on the Census Enterprise Data 
Collection and Processing, what are some specific steps that 
could be taken to de-scope CEDCaP and make it more manageable 
to achieve and time for the census 2018 ----
    Ms. Harris. I think, Mr. Palmer, one such step that can be 
taken is the removal of the known ID processing in the 
automated environment. I do agree with Director Thompson in 
that they have had significant amount of experience over 
multiple decennials in how to process non-ID in paper format, 
but in an electronic environment, I would question the Bureau's 
level of experience to prevent fraudulent responses.
    In addition to that, the current ability to validate the 
volume of responses that they would get from these--from 
respondents using just an address is something that I would 
also question. And given the fact that the requirements 
associated was--with this particular component is still in the 
exploratory phase. Given that we are in year 6 with only a 
year-and-a-half remaining before this end-to-end test, I think 
it would behoove them to take this off the table. I think in 
this case the juice isn't worth the squeeze. And so that would 
be one of the key things that I would suggest that the Bureau 
take off the table to reduce the complexity and scope of 
CEDCaP.
    Mr. Palmer. I think you just answered my next question, but 
I want to make sure that we have this for the record. Should 
the Bureau reconsider using administrative records to replace 
the unique ID code, and if so, why?
    Ms. Harris. Well, that, Mr. Palmer, is something that is 
out of the scope of the review of the work that we've done. 
With regards to administrative records, the key point there is 
to ensure that those records that they do use are adequately 
secure. And so in terms of whether or not they should be 
replacing or using administrative records to either supplement 
or replace a non-response follow-up work, that's something that 
is an operational decision that is something out of the scope 
of what I can tell you from an IT professional's perspective.
    But from a cybersecurity perspective, that is absolutely 
something that they need to be mindful of. As they develop and 
define and finalize this IT solutions architecture, they have 
to be looking at the IT measures that--or, I'm sorry, the IT 
security measures that need to be in place to adequately 
protect this information.
    Mr. Palmer. My concern about it is--and I think it has been 
discussed in this hearing to a certain extent is that the 
census is so important in the context of redrawing 
congressional districts and determining the number of eligible 
voters. And there are some who, I think, would like to add 
people who are not eligible to be counted in a congressional 
district or eligible to be counted as eligible voters. And I 
think it is important that we are able to identify people who 
are legitimate citizens. And that is part of what concerns me 
about this is that you are not able to accurately identify who 
is responding online.
    Thank you, Mr. Chairman. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize Mr. Clay ----
    Mr. Clay. Thank you, Mr. Chairman.
    Chairman Chaffetz.--for 5 minutes.
    Mr. Clay. One of the major themes of GAO's work on the 
Census Bureau is that the Bureau has many important decisions 
that need to be made in a timely manner in order to meet the IT 
modernization goals for the 2020 census. One example of such a 
decision is how to equip census enumerators with handheld 
devices for the 2020 census. The final decision was made this 
January significantly ahead of schedule. I would like to walk 
through this particular decision in order to get a better sense 
of the decision-making process at the Bureau.
    Director Thompson, when did the Bureau first start 
considering the possibility of wide-scale usage of handheld 
devices for 2020?
    Mr. Thompson. That's a good question. I think--I know--so I 
came to the Bureau in August of 2013.
    Mr. Clay. Okay.
    Mr. Thompson. At that time, the Bureau was planning to use 
handheld devices, smartphones, to collect the information--in 
2012. So in 2012.
    Mr. Clay. Okay. Okay. And then can you describe one of the 
benefits of having enumerators or canvassers with handheld 
devices?
    Mr. Thompson. Yes. So the most important thing is, is that 
we have in most parts of the country a mobile connection with 
our enumerators, which means that we can, one, make sure that 
we get the information off their machines in a timely basis, in 
a secure way. We can also do things like give them optimal root 
assignments on a daily basis, which tells them what time to go 
visit housing units and the path they should follow. More 
importantly, it gives us information that we can feed to their 
supervisors that allows for very efficient management of these 
enumerators. And it's allowed us to increase the ratio of 
supervisor to enumerator. This is what's resulting in 
significant inefficiencies ----
    Mr. Clay. Correct.
    Mr. Thompson.--in the operation we use to collect, you 
know, the data from those households that don't respond.
    Mr. Clay. And there will be a test as far as the equipment 
is concerned?
    Mr. Thompson. So, Congressman, we have been testing 
handhelds, smartphones in 2014, 2015, and now we're in the 
field in 2016 testing these devices.
    Mr. Clay. Yes. And having made a decision to use handheld 
devices for the census, the Bureau then had to decide how to 
source those devices and provision them to enumerators. Can you 
describe for us the different options that you considered for 
providing handheld devices to enumerators?
    Mr. Thompson. Yes, Congressman. Essentially, we considered 
two themes. One theme was bring your own device ----
    Mr. Clay. Okay.
    Mr. Thompson.--and the other theme was the government 
provides equipment, and under this the government provides 
equipment by allowing a contract ----
    Mr. Clay. Okay.
    Mr. Thompson.--to a vendor who can provide the devices and 
the IT service contracts. So we made the decision in January, 
which was earlier, to go with a device as a service in part 
because the GAO at a hearing and, in fact, in recommendations 
said we ought to look at--can we expedite our decision-making. 
And so we did, and it turned out that was one decision that we 
thought that we could expedite based on the information we had 
received. And so we expedited that decision based on, you know, 
our testing.
    Mr. Clay. Okay. And will the information--do you feel 
pretty good that it will be protected if it is sensitive 
information?
    Mr. Thompson. I do, but I'll let Harry talk about the 
methods we'll use.
    Mr. Clay. Go right ahead.
    Mr. Lee. Congressman Clay, thank you for the question. Yes, 
we feel comfortable and confident with the security of the 
device, and it's not just the device itself. We do have 
controls and ways to monitor the device. We also encrypt the 
data that the device collects and it transmits.
    We also have ways to authenticate the user when they're 
using the device. There are a number of ways. First is a PIN to 
get access to the device itself, and then user name and 
password to actually access the applications. So again, we have 
multiple levels of security on that device.
    Mr. Clay. And beyond simply providing the devices, what 
other services do you anticipate the contractors will provide?
    Mr. Lee. The service that the device will use to 
communicate with the Census Bureau, also we will be working 
with them to provide the software that they will load on the 
device ----
    Mr. Clay. All right.
    Mr. Lee.--to control and monitor the device. And they will 
also wipe the device when it's returned, and we will actually 
provide oversight for the wiping of that device to make sure 
it's been wiped.
    Mr. Clay. Thank you for your responses. Mr. Chairman, my 
time is up.
    Chairman Chaffetz. Thank you. I will now recognize myself.
    Mr. Cooper, on October 22 of 2015, Congress enacted what is 
called the Quarterly Financial Report Reauthorization Act, 
which requires the Secretary of Commerce to submit a report to 
Congress on data security procedures at the Census Bureau by 
January 20 of 2016. The Bureau has yet to provide Congress this 
report. What is the status, and why is it so late?
    Mr. Cooper. I have to admit that I can't speak to exactly 
why it's late other than I will take responsibility for that. 
And ----
    Chairman Chaffetz. Is it done?
    Mr. Cooper. It is being completed as we speak. It came to 
my attention more recently that we had missed the deadline. My 
staff is now working to complete that report. I've seen a 
draft. It should be moving forward probably no later than the 
end of this month.
    Chairman Chaffetz. It is Federal law that you are supposed 
to report--you were supposed to give this to us on January 20, 
so when did you become aware that it was late? No, I ----
    Mr. Cooper. I became aware last month.
    Chairman Chaffetz. So it is due in January and you didn't 
know until May that it was late?
    Mr. Cooper. That is correct.
    Chairman Chaffetz. And you think we are going to have this 
by the end of June?
    Mr. Cooper. Yes, sir.
    Chairman Chaffetz. It is terribly frustrating. You know, 
constituents get frustrated with us because--anyway it is 
Federal law. I don't know how you miss things like that. It 
gives me no confidence when you come and testify and say, oh, 
but we are going to get the census on time, on budget.
    Mr. Cooper. I understand, Congressman. I apologize. I 
missed this one. I'll take ----
    Chairman Chaffetz. Well, you missed the other two ----
    Mr. Cooper.--full responsibility.
    Chairman Chaffetz.--reports as well to Congress. The other 
promises you made, you came and testified before Congress, you 
missed those as well.
    Mr. Cooper. I did. I can absolutely understand how it 
doesn't instill confidence.
    Chairman Chaffetz. All right.
    Mr. Cooper. I'm working to correct that as best I can.
    Chairman Chaffetz. Mr. Thompson, help me understand. Will 
every American or every household--I don't know how to qualify 
it--get a census in the mail? Will you be mailing to every 
household, every ----
    Mr. Thompson. So we will mail an invitation to every 
household to respond by the Internet except for about 20 
percent, which will get a questionnaire.
    Chairman Chaffetz. How do you determine which 20 percent?
    Mr. Thompson. So there's a number of data sources we look 
at. One of them is the American Community Survey. Some of them 
are some data that the Department of Commerce has on broadband 
proliferation, and we put that together and determine areas in 
the country where we don't anticipate either high Internet 
response--where there's no Internet or where there's a 
proclivity not to respond by the Internet.
    Chairman Chaffetz. So you said earlier it was going to be 
55 percent on the Internet. What are the other--you think 20 
percent by mail. Am I getting those numbers right?
    Mr. Thompson. Well, we're going to mail out 20 percent. We 
expect we'll get about 10 or 11 percent back from the mail.
    Chairman Chaffetz. Okay. So you are getting 10 to 11 
percent by mail, 55 percent on the Internet. How are you 
getting the rest of them? Your microphone ----
    Mr. Thompson. Sorry. So we also are going to allow people 
to call in and be counted.
    Chairman Chaffetz. You are going to dial it in?
    Mr. Thompson. No, no, no, they can call in. In previous 
censuses, some ----
    Chairman Chaffetz. They are going to talk to a live person?
    Mr. Thompson. Yes. Yes. Yes, sir.
    Chairman Chaffetz. Have you done that in the past?
    Mr. Thompson. In the past what we've done is we've provided 
what's called questionnaire assistance, so individuals could 
call in and we give them advice over how to fill out their form 
or we would mail them a form. This time, what we've found is 
that we might as well--because there was great frustration in 
the past when people would call in, they'd say, well, I want to 
give my interview, and we'd say no. So this time we're going to 
let them give their interview.
    Chairman Chaffetz. How do you verify that? Like how do you 
know where they are?
    Mr. Thompson. Well, for starters, we ask them for the ID 
number that they have on their material that they get, and we 
also ask them what their address is.
    Chairman Chaffetz. What percentage of the response do you 
think is going to happen via calls?
    Mr. Thompson. About 5.5 percent.
    Chairman Chaffetz. What about the rest? How are the rest of 
them going to be done?
    Mr. Thompson. So there's a strategy to collect the 
information from those that don't self-respond, which involves 
the usage of administrative records and third-party data. So we 
estimate that we will start our non-response follow-up with, 
say, about 52 million. Don't quote me on these because I'm 
getting old and the numbers are close but won't be exact and my 
----
    Chairman Chaffetz. When you leave the Census Bureau and you 
don't want us to quote you on the numbers, that scares me so --
--
    Mr. Thompson. All right. All right.
    Chairman Chaffetz.--I know ----
    Mr. Thompson. All right. All right. All right. All right. 
So we're going to start the non-response follow-up with 56 
million households, okay? We expect that we'll get about 1.3 
million of those back after--as a late mail return. People tend 
to mail in as the operation goes on.
    Chairman Chaffetz. Sorry. I am trying to get a breakdown on 
the percentages. I don't know exactly how many people we are 
going to end up counting. As I recall, it is 330 million or so.
    Mr. Thompson. So we expect that there's going to be about 
143 million housing units total in 2020 for the United States 
and Puerto Rico. We estimate that the self-response rate will 
be about 63.5 percent after 6 weeks. We estimate that the 
Internet response rate will be 47 percent after 6 weeks. We 
estimate that the telephone response rate will be 5.3 percent 
after 6 weeks. And we estimate that the paper response rate 
will be 11.2 percent after 6 weeks. And then for the remaining 
we're going to have to go out and collect the information 
either in person or by using administrative records.
    Chairman Chaffetz. Explain administrative records to me.
    Mr. Thompson. So there are two ways we plan to use 
administrative records to save money in this operation. The 
first way is that we intend to identify units that are vacant--
vacant units don't mail back obviously--and count them using 
administrative records. So we're going to take them out of the 
non-response follow-up workload, and we estimate that'll be 
about 6 million. We then are going to ----
    Chairman Chaffetz. Well, if it is vacant, isn't that number 
zero?
    Mr. Thompson. Well, yes, we have to visit--that's ----
    Chairman Chaffetz. You have to visit it ----
    Mr. Thompson. That's ----
    Chairman Chaffetz.--but the number ultimately is ----
    Mr. Thompson. Well, the number of vacant we'll take out 
will be 6 million vacant housing units.
    Chairman Chaffetz. Right.
    Mr. Thompson. Okay. We have to go visit them ----
    Chairman Chaffetz. Right.
    Mr. Thompson.--but these will reduce our workload by 6 
million that we don't have to visit. Then, we're going to visit 
every household once, and we estimate that we'll get about 11 
million of those households enumerated. That's households and 
they'll have people in them which we ----
    Chairman Chaffetz. As I try to break down the percentage, 
when you do 11 million of a universe of roughly ----
    Mr. Thompson. Of 56 million.
    Chairman Chaffetz.--how many people?
    Mr. Thompson. So 11 million will be about 22 percent of the 
workload for non-response follow-up.
    Chairman Chaffetz. All right. This is going to take a 
while, these percentages as they skew over the course of time. 
Can you help me break that down in terms of mail, phone, 
Internet ----
    Mr. Thompson. So I'd be happy to send you the whole--a 
really nice chart.
    Chairman Chaffetz. That is what I mean.
    Mr. Thompson. But let me get to one important point that I 
want to make sure you understand we're going to do so if you 
have problems with it, you can voice those problems. The next 
thing we're going to do after we visit every household once is 
we want to enumerate--we believe we can enumerate about 6 
million housing units using administrative records. And these 
would be tax data, Social Security data, data from Medicare and 
Medicaid, Indian Health Service, but we estimate we can 
enumerate about 6 million. Where we'll be really confident the 
administrative records represent the housing unit, and then we 
will go back out and enumerate the rest in person, you know, 
doing door-to-door techniques. But I want to make sure you 
understand that our current plan includes a provision to 
estimate some occupied housing units using administrative 
records.
    Chairman Chaffetz. I guess what scares me--and I will come 
back to this--is, you know, using the Internet, oh, you know, 
what could go wrong? Allowing people to just call it in, I 
worry about that as well. I get, you know, solicitations on my 
phone all the time. I have no idea where these yahoos are. They 
could be overseas for goodness sake. But we will have to 
explore that further.
    Let me now recognize the gentleman from Wisconsin, Mr. 
Grothman, for 5 minutes.
    Mr. Grothman. Mr. Chairman, I am sorry I wasn't here for 
most of the rest. I had another hearing. But I suppose I will 
ask Mr. Thompson a couple questions.
    In something a little unrelated to maybe some of the past 
questions, there has been a lot of discussion as far as the 
number of illegal immigrants in the country and people throw 
around the 11 million figure all the time. A lot of people feel 
that number was generated by the census. Do you collect data on 
people who are here illegally?
    Mr. Thompson. No, Congressman, we don't. I mean, we include 
them in the decennial census. We--our mandate is to count every 
inhabitant of the United States. I mean, we include them. We do 
not break it out by legal, illegal, or ----
    Mr. Grothman. Is it possible going through the census data 
people can make an estimate on the number of people who are 
here illegally?
    Mr. Thompson. I'm not a really good expert on how estimates 
of the illegal population are made. I know there's a number of 
estimates and they use--certain uses of the American Community 
Survey come into that, but they--it's a very--it's a much more 
sophisticated process. So, I mean, it's not--it's just not 
apparent from the census data.
    Mr. Grothman. Okay. Hypothetically, if there are people 
living in a house and some people are illegal and some people 
are legal or even if a house is filled with people who are here 
illegally, do you believe you are accurately counting those 
people?
    Mr. Thompson. We believe we're counting them as accurately 
as we possibly can. Now--and the reason I say that is we've 
done studies before that shows that there are some issues with 
counting certain populations, and we do have some undercounts, 
and we're working to rectify those and count everyone, but our 
goal is to count everyone.
    Mr. Grothman. Okay. I realize it is, but let's say we have 
a family of six people who are here illegally and they live in 
a house. How do we know that they are being counted? I mean, 
first of all, I would suppose--and this is a controversial 
issue, obviously, or an issue of some debate. I would suppose 
that if I was here illegally, I might not advertise that I was 
here. So if there is a house here and six people are living in 
that house and they are here illegally, how do you know that 
you are counting them?
    Mr. Thompson. So we do everything we can to count that 
household. In particular, we have programs that we run that are 
local partnership programs where we work with community leaders 
to get the word out that, one, the Census Bureau--it's very 
important to answer the census; and two, your data are 
protected and confidential. And so by working at a community 
level, we hope and believe that we encourage a high level of 
participation in the census.
    Mr. Grothman. Okay. Well, let's deal with some common sense 
here. If I was here illegally, even if a nice social work-type 
person showed up at my door and said I should answer the census 
legally, I might not want people to know that I am here or want 
to know what my name is even if the government person says your 
name is confidential and it is only being kept with the census 
or what have you. What are you doing to make sure--and to be 
honest I believe maybe there is nothing you can do, but could 
you comment on your ability to include the names of all those 
six people on the census?
    Mr. Thompson. So you're hitting at something that's really 
important ----
    Mr. Grothman. Right. Right.
    Mr. Thompson.--in taking the census. And it's really 
important that we hire locally. So we hire members of the 
community to work for the census because we really have found--
and I just saw this in Los Angeles--that when you have members 
of the community working for you and collecting the 
information, there's much more of a rapport and there's much 
more of a trust that's built up between the respondent and our 
workers.
    Mr. Grothman. I am sure all that is true. The point is if I 
was somewhere where I shouldn't be, I might not want to tell 
the government that. It doesn't matter how nice the person is. 
Could you comment on your ability, again, if there was a family 
of six people or maybe two families of a total of six people 
living in a house or an apartment do you feel that your numbers 
would be accurate with regard to those six people given the 
overwhelmingly human predisposition, I suppose, not to want to 
admit that you are breaking the law?
    Mr. Thompson. I'm reasonably confident that we would count 
that household.
    Mr. Grothman. Why? Why wouldn't somebody not say you are 
here? Why would you fill out a form?
    Mr. Thompson. Well, because what we've found--and this 
started in the 2000 census--was that when we started working 
and putting our people out and working with local community 
leaders, we saw that we got, one, higher response; and two, we 
started seeing dramatic reductions in the differential 
undercount between a minority/non-minority populations. And so 
by continuing to--and we expanded that program in the 2010 
census, and we saw the undercounts further reduced. And so we 
believe that we've found that by working at community levels we 
can encourage people to participate.
    Mr. Grothman. Can I have one more question ----
    Chairman Chaffetz. Sure, go ahead. Go ahead.
    Mr. Grothman.--just for waiting around?
    Chairman Chaffetz. Sure.
    Mr. Grothman. Thank you, Mr. Chairman.
    If I am living in a house, maybe a house with more than one 
family or three families together and I do not respond to the 
survey because, of course, I don't want to admit I am breaking 
the law, how do you know you are undercounting?
    Mr. Thompson. So the Census Bureau believes that evaluating 
the work we do is very important. So we use a number of methods 
to evaluate the accuracy of the census. We use one method 
called demographic analysis, which uses birth records, death 
records, immigration, and measurements of what the undocumented 
population would be as one vehicle. We also do a survey that we 
use to measure the accuracy of the census. And we--and based on 
those things, we have information that we made available that 
shows how accurate we believe the census is.
    Mr. Grothman. Just because your question just begs another. 
You say you use immigration records. If people come here 
illegally, what sort of immigration records do you use to know 
that they are there?
    Mr. Thompson. We don't. We use estimates of what the 
population might be. But we don't use--obviously, we don't use 
immigration records.
    Mr. Grothman. Thank you for the extra time.
    Chairman Chaffetz. I don't understand that either so--I 
will now recognize--what are you knocking about?
    Mrs. Maloney. I thought he was waiting but he is not.
    Chairman Chaffetz. Oh. I will now recognize Mrs. Maloney --
--
    Mrs. Maloney. Okay.
    Chairman Chaffetz.--for 5 minutes.
    Mrs. Maloney. Okay. Thank you. Thank you. This has been a 
very informative session. I just would like to briefly speak in 
support of the American Community Survey and really the census 
in general. It is the only source of consistent, timely, and 
high-quality demographic and socioeconomic data for all of our 
communities in America. And we allocate, as was mentioned, well 
over $400 billion annually to States and local governments 
based on this American Community Survey data. And there is 
absolutely no other source for that data. So without the 
American Community Survey, the government would not know how to 
allocate literally billions of Federal dollars to State and 
local governments in a fair process.
    The American Community Survey also gives businesses--it is 
valued very much by private business. It gives them critical 
tools to help guide capital investment, location of facilities, 
hiring, service decisions. And then also State and local 
officials also use the data for prudent allocations of their 
own funds such as where to build roads, hospitals, schools, 
senior centers, and other basic services.
    So without this, we would be really flying blind on 
allocating well over $400 billion, which then goes to a 
question I have about the Consolidated Federal Funds report, 
which was in existence between 1995 and 2010, which presented 
data on Federal Government and State and local governments. And 
this showed where the Federal money was being spent. You know, 
where is the money going? That is the first step for oversight 
and whether it was competitively bid or what was the process 
that made this decision.
    But due to budget cuts, the Census Bureau no longer 
publishes this report. So I would like to know how much did 
this report cost and what is the damage that has been done 
because we no longer have the report? It seems that the 
government does not have enough Federal money to find out where 
its $400 billion is being spent. That seems like a gross 
oversight, and I would like to request a GAO report on what 
this means, that we are spending $400 billion and not even 
knowing where it is going without the oversight on it.
    So, Mr. Thompson, can you respond on the Federal Funds 
report and why it was stopped and the uses of it? And how can 
we track these Federal dollars without it?
    Mr. Thompson. So, Congresswoman, I know that we stopped 
issuing the report, as you said, due to budget issues.
    Mrs. Maloney. Well, how much did it cost?
    Mr. Thompson. I--I'm not prepared to answer that. I'd be 
happy to find out what it cost and send that to you, and I'll 
be happy to say what it was used for and provide the rationale 
for--more details on how we reached the decision to drop that 
and not something else. But I just didn't come prepared to talk 
about that.
    Mrs. Maloney. Well, we allocate, according to your 
testimony, $415 billion a year in Federal funds. And where is 
that money going? Where is the oversight on where that money is 
going? Maybe you could send me or somebody else a couple of 
billion and no one even knows about it. So where is the 
oversight on where those dollars are going? If you don't have 
an oversight system--this was the system that tracked where the 
Federal dollars went and if it was honest and fairly done.
    You know, you could give a contract to build a recycling 
plant--this actually is a true story; it happened in New York. 
They built a recycling plant, and then they opened it, and then 
they closed it down. And I called for an investigation and they 
said it was appropriately spent because they opened it for one 
day. Well, I would like that recycling plant to be helping the 
people of America, not wasting taxpayer money.
    So if we don't have oversight of where our Federal dollars 
are going, I mean, I just have to say how dumb can we be? We 
are blind. We don't know where anything is going. And 
seriously, I think we should have a joint Federal GAO report on 
where is all this money going. Where is the oversight on $415 
billion? I am shocked to find out that this is now--we are not 
even looking at it. We are totally blind on where this money is 
going. This is incredible. No response?
    Mr. Thompson. Congresswoman, just--it's--the question is 
sort of out of the realm of the Census Bureau, and the reason 
it's out of the realm is the Census Bureau is a statistical 
agency, which means our mission is to provide objective, 
nonpartisan ----
    Mrs. Maloney. Well, I would say ----
    Mr. Thompson.--high-quality data ----
    Mrs. Maloney.--it is not out of the realm ----
    Mr. Thompson.--but we don't ----
    Mrs. Maloney. May I speak?
    Mr. Thompson. We don't ----
    Mrs. Maloney. I would say it may officially be out of your 
realm, but it is not out of the realm of common sense and 
government oversight and accountability. We need to know where 
these dollars are going.
    Now, you very appropriately--and I noticed how in many of 
your testimonies many of you said and we are spending X, Y, Z, 
and we are competitively bidding that. And I was thinking, 
good, they are being good managers. But how do we know that if 
we don't know where this money is going? Maybe $100 billion is 
competitive bid and the rest of it is a private contract. We 
don't know that.
    So I would like an accounting of where this money is going. 
I think that is a reasonable thing not only of the Census 
Bureau's $17 billion, which is an astronomical amount of money; 
I am glad you are going to save $5.2 billion with this new 
automation that shows great progress and I hope you stay on 
record and meet your guidelines. But it is beyond the pale that 
we have $415 billion in Federal funds going down to the States 
and cities and every place else and the accountability report 
was terminated. So I would like you to get back to the chairman 
as quickly as possible how much that report cost, can we 
implement it in this current census, and how is this oversight 
taking place now?
    I would like to ask Mrs. Harris, who has a lot of oversight 
answers, do you know where the $415 billion is being spent in 
the Federal Government? Is there an oversight of where those 
dollars are going and if it is competitively bid or not?
    Ms. Harris. Ma'am, that would be out of the scope of the 
work that I do at GAO, but I can certainly take that back to my 
colleagues.
    Mrs. Maloney. Can you find out who is looking at where this 
is going? I mean, I find this astonishing, quite frankly, and 
it is out of the realm of everybody's oversight. But, I mean, 
where do you think it is going? Who has the oversight on it? Do 
any of you have an idea where all this information could be 
compiled? Ms. Harris, can you get back to us, to the chairman? 
I think the chairman is always talking about saving money. This 
is certainly the best way to save money is to know whether it 
is spent or not, and if it is spent fairly. I would like to 
know if it was spent on the contract that it was contracted for 
and to a reliable contractor and not a crony. I think this is 
astonishing and deplorable and terrible.
    Chairman Chaffetz. The gentlewoman yields back.
    I have a few more questions as we wrap up here.
    Mr. Thompson, I would encourage you as much as I can 
possibly encourage you on these enumerators to pay special 
attention to this. I believe you said there would be about 
300,000 people that will be hired. We have hundreds of 
thousands of people that have been vetted that do know these 
communities, and they are the United States postal workers. And 
I don't know if we have to push it through in legislation, but 
I know there are good, broad bipartisan support for the idea 
that rather than having to start from scratch, find somebody, 
vet somebody, teach somebody, your postal worker has been 
vetted. They are one of the most trusted people in all of 
government.
    And I know the unions and the postal workers themselves--
not every single one of them obviously--but would love this 
opportunity. They already do know these neighborhoods. They 
have walked, they do generally understand. And I think it would 
be a great deal of money that could be saved by using the 
Postal Service as widely as possible to be these enumerators. 
It makes a great deal of sense to me, and I just--between the 
vetting and the execution, the understanding of these 
neighborhoods, every address already has somebody that goes 
there.
    And as you look towards other systems and mapping and 
everything else, the Postal Service deals with this right now. 
And anything that you could do, we will work with you between 
the committee and your staff, but this is a passion of mine 
personally. And I know I have talked to Mr. Cummings and 
others. This is a great resource that is probably underused 
every time we go into these censuses.
    So that was more of a speech than a comment, but if you 
want to care to comment, feel free.
    Mr. Thompson. No, we agree that the Postal Service has 
potential and--not has potential--is a very valuable partner 
right now in how we prepare to take the census. We work with 
them very closely to build our address list. We would certainly 
be more than happy to hire postal workers to go collect the 
information for us. We meet with the post office on a very 
regular basis to look for opportunities to work together. So 
like, for example, in 2015 we used their facilities as places 
in our testing where we could, you know, vet that employee and 
things like that. So we view the post office as a very valuable 
resource.
    Chairman Chaffetz. And again, we are going to work closely 
with you, but you don't need to go vet people if they are 
already hired as a postal worker. So we don't need extra space 
and time and money and resources. And my guess is that would be 
substantial savings and a much more secure way to do it than 
before.
    I still have deep concerns about the use of the Internet. 
Our staff will work with you in just understanding the security 
and complexity of that, what that budget looks like.
    Mr. Lee, you have been either the acting CIO or the deputy 
CIO for the last 2 years. How many people work for you in that 
department?
    Mr. Lee. Right now, there's about 1,250 employees in the IT 
directorate, about half contractors, half Federal staff.
    Chairman Chaffetz. And if I were to walk over there and you 
were to walk me around and look at all these employees and what 
they are doing, that is just in the IT sector, right?
    Mr. Lee. That's the IT directorate, yes, sir.
    Chairman Chaffetz. And like what kind of operating systems 
are you using right now? At their desktop, what is the average 
person going to have?
    Mr. Lee. Windows operating system at their desktop.
    Chairman Chaffetz. Like what version?
    Mr. Lee. Right now, we're at 7 and we're looking at testing 
out Windows 10.
    Chairman Chaffetz. It has been pretty tested. It works. I 
can tell you that.
    Mr. Lee. Yes, well, internally ----
    Chairman Chaffetz. Two thousand seven, is that even 
supported by Microsoft anymore?
    Mr. Lee. No, actually 2007--we're retiring 2008 and we're 
testing 2010. I apologize, Chairman.
    Chairman Chaffetz. Okay. All right. We will deal more with 
that. During your time there the last 2 years have there been 
any data breaches?
    Mr. Lee. Yes, sir. We have had two breaches, July of 2015 
and February of 2016. But they were all on our external-facing 
sites and with--segmented off from our production environment.
    Chairman Chaffetz. Was there any data that was exfiltrated?
    Mr. Lee. There was some data that was exfiltrated that was 
considered as being low sensitivity, publicly available data, 
but it was queried, and we have since corrected any 
vulnerabilities ----
    Chairman Chaffetz. Is there any ----
    Mr. Lee.--in those things.
    Chairman Chaffetz.--personally identifiable information 
that was extracted?
    Mr. Lee. There was some email addresses and some names.
    Chairman Chaffetz. Do you know how many?
    Mr. Lee. We have the details. I do not have them with me 
right now.
    Chairman Chaffetz. But off the top ----
    Mr. Lee. We did report them up through the DOC cyber 
incident response team process.
    Chairman Chaffetz. You don't know off the top of your head 
how many that was?
    Mr. Lee. There was a handful of notices that went to the 
individuals whose information was made available.
    Chairman Chaffetz. Ms. Rice, are you familiar with these 
data breaches?
    Ms. Rice. I personally am not aware of them, but somebody 
in my office likely was.
    Chairman Chaffetz. Would you get back to us and let us know 
----
    Ms. Rice. Sure.
    Chairman Chaffetz.--if you got that notification?
    Ms. Rice. Yes.
    Chairman Chaffetz. I would appreciate that. Help me 
understand the role of the CIO for census and the role that Mr. 
Cooper plays as the CIO for the Department of Commerce. Who 
does what? Who is responsible?
    Mr. Cooper. Okay. The--my role as the Department of 
Commerce CIO related to the Census Bureau, and a lot of what 
we've been talking about today is a governance and oversight 
role. I am responsible for ensuring the accuracy, the 
integrity, and the security of predominantly all of the systems 
that support the 2020 decennial and support the operations that 
then either feed or carry out what will become the final 
integrated environment for conducting the 2020 census.
    The Census Bureau CIO has day-to-day operational 
responsibility for all things IT resources and to advise 
Director Thompson and Deputy Director Potok in all matters 
related too much of what our discussion has been today.
    Chairman Chaffetz. Okay. Anything else, Mr. Thompson, that 
you would add to that? It seems like a good explanation to me, 
but I didn't know if you wanted to add anything to that?
    Mr. Thompson. No, I think Mr. Cooper did a great job of 
describing ----
    Chairman Chaffetz. Okay. As we wrap up here, Ms. Rice and 
Ms. Harris, go back for us--now we have had a good discussion 
for a couple hours--what are your biggest concerns? Go ahead, 
Ms. Harris, you can start first, yes.
    Ms. Harris. Mr. Chairman, I appreciate the question. The 
greatest concern that we have at this time is the risk and 
complexity--or, I'm sorry, the scope and complexity of CEDCaP 
and the risk that it presents given the fact that there is only 
one-and-a-half years remaining until the 2018 end-to-end test.
    So the top priority that I would suggest the new CIO that's 
coming into the Census Bureau really consider is identifying 
ways to reduce that complexity and scope because, again, when 
you look across the Federal Government and you look at these 
similar types of major IT investments, the complexity is 
something that consistently is something that gets agencies 
every time and will lead to cost overruns, schedule delays, and 
given the fact that the Bureau has an immutable deadline, in 
order to set themselves up for success, they should be reducing 
that scope and simplifying the design itself.
    Chairman Chaffetz. Care to add anything, Ms. Rice?
    Ms. Rice. No. I will piggyback on what Ms. Harris said. But 
I guess one of the things to consider is that all of the 
testing is being done in--you know, with a sample of 40,000 
households, and when you think of the scalability, I think 
that's what's frightening. It'll be 140 million households, so 
it's just the massive size of the ----
    Chairman Chaffetz. The enormity of it all.
    I now recognize Mrs. Maloney.
    Mrs. Maloney. Just in conclusion, I want to thank all of 
you for your important work. Many people find it boring, but I 
think it is incredibly important. It may be boring, but it is 
incredibly important. And quite frankly, I find it exciting 
because it tells us who we are as a nation, and that is why it 
is so important to get an accurate census so that we can then 
use that data to make accurate decisions of where we should be 
investing in education, in job growth, in so many ways.
    And I will tell you, it is such an important tool not only 
for scientists and program people and businesses that helps 
them plan and plot and move forward. And just like the Federal 
Government really does most of the research, the initial 
research funding because private sector really will not put the 
money into it that has led us to be the innovators and really 
the business leaders of the world.
    And a lot of this data that you provide is really the basis 
that every planner, every scientist, everyone uses it. And it 
is so important to continue. So I was concerned at so many 
questions about people questioning whether or not we need the 
American Community Survey. Of course we need it. That survey 
tells us who we are. And you have the responsibility to get it 
as accurate as possible, and I am counting on you. You have got 
a big challenge ahead.
    Mrs. Harris pointed out a lot of obstacles that you are not 
really on track completely, and so I really want to thank 
everybody for their role in doing this.
    But I must tell you I am astonished to find out that the 
very critical part of knowing where our money is going is no 
longer being tracked. Now, I will say that I have really 
respected--and I mean this sincerely in a bipartisan American 
spirit--the chairman's focus on taxpayer money. Practically 
every hearing he says we are the stewards of the taxpayers' 
money. Well, we are not the stewards when we cut out the survey 
that tells us where the money is going.
    So I hope you will join with me in not only calling on a 
GAO report on where is this money going but in getting this 
very important survey back into the budget. If we are spending 
zillions of dollars all over the place, including over $400 
billion in private contracts, we should certainly know where 
that money is going and to make sure that it is spent for the 
purposes that it is directed for and that the American people 
are getting the support and the money that is supposed to be 
directed to them. That is their money. That is money going into 
their communities, into their lives, their health care, the 
defense of our country and everything else. It is important to 
know where these dollars are.
    So I look forward to hearing from you, Mrs. Harris, just as 
soon as possible on that and also Mr. Thompson because I am 
really, really disturbed that we don't have that particular 
aspect of it.
    But I do want to compliment you. I know that it has been a 
real trial to get a handheld that worked. Congratulations on 
getting one that is now working in the field. I think that is a 
tremendous step forward, and I think it is a tremendous step 
forward to be going to the Internet. I know my daughters don't 
even communicate any way except for on the Internet. There is 
whole new type of people. You know, I used to only need a 
pencil. Now, you need the Internet and the computers and 
everything else, but that is how they communicate. So I think 
is a great stride forward. It is going to be cost-effective, 
too. But I also think we need to work on getting the Internet 
out to everybody in America so that they can be part of this 
system that was pointed out by Mrs. Kelly that many of her 
constituents don't have it.
    But in any event, I think this was a very important effort 
that we all have. It is the biggest peacetime endeavor that we 
do as a nation. And I just want to thank you for doing 
critically important work for our nation.
    And thank you very much, and I yield back.
    Chairman Chaffetz. I thank the gentlewoman. I have got to 
tell you, I am as big a proponent of technology as you can be, 
but it scares the living daylights out of me, too. The ability 
to manipulate, to change, alter, scam, I really do worry about 
it. And the overreliance on technology to do the census is 
something that is of deep concern, and we will be watching, 
working with you closely, but in many ways I don't like it. And 
I think it has the potential to be ripe with fraud and that is 
of deep, deep concern. And so the safety, the protocol, it 
really does scare me.
    And you need to have a backup. You better have a backup 
because it is going to take Mr. Cooper, according to his 
estimate, another 2 months just to get a schedule for the 
schedule. So we talked about 18 months; now, we are down to 16 
months and that is just to get a schedule. So we are raising 
the red flag. We are, you know, sending up every warning flare 
we can have, and I know you feel the pressure, but, you know, 
we are 6 years into the planning and we still don't have this 
basic information.
    So I thank you all for the work you do. You represent a lot 
of people who are doing a lot of good, hard, patriotic work. 
Ms. Harris and Ms. Rice and your organizations, between the OIG 
and the GAO, we rely heavily on your expertise and your day-to-
day watching of this. We look forward to having very regular 
hearings on this. I think we will try to have quarterly 
hearings as we turn the corner in the next year, and you ought 
to be prepared for that. As the primary jurisdiction here, we 
need to keep a watchful eye on it.
    And we thank you. It has been a long hearing. And the 
committee stands adjourned.
    [Whereupon, at 11:47 a.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
